OFFICE OF INSPECTOR GENERAL




AUDIT OF USAID/LEBANON’S
RULE OF LAW PROGRAM

AUDIT REPORT NO. 6-268-10-006-P
August 24, 2010




CAIRO, EGYPT
Office of Inspector General


August 24, 2010

MEMORANDUM

TO:                  USAID/Lebanon Director, Denise A. Herbol

FROM:                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:             Audit of USAID/Lebanon’s Rule of Law Program (Report No. 6-268-10-006-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in Appendix II.

The report includes 14 recommendations for your action. On the basis of actions taken by the
mission and supporting documentation provided, management decision has been made on all
14 recommendations. The mission took final action on Recommendations 1, 3, 5, 9, 10, 11, 12,
and 13. Please provide the Audit Performance and Compliance Division in the USAID Office of
the Chief Financial Officer (M/CFO/APC) with the necessary documentation to achieve final
action.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Ahmed Kamel St. off El-Laselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 4
Audit Findings ................................................................................................................. 7
Is USAID/Lebanon’s rule of law program achieving its main goal of
increasing the effectiveness and independence of the Lebanese judicial system? .......... 7

          USAID/Lebanon Should Obtain
          Commitment From Beneficiaries ........................................................................... 9

          USAID/Lebanon Should Strengthen
          Oversight of Renovation Activities....................................................................... 11

          USAID/Lebanon Should Ensure That
          Funding Requests Are Appropriate ..................................................................... 16

          USAID/Lebanon Should Ensure That
          Costs Are Appropriate ......................................................................................... 17

          USAID/Lebanon Should Develop
          Negotiation Points for Tax Exemptions
          for USAID-Funded Property ................................................................................ 21

          USAID/Lebanon Should Strengthen
          Program Oversight .............................................................................................. 22

Did USAID/Lebanon’s program reports provide stakeholders with complete and
accurate information on the progress of the activities and the results achieved?........... 24

          USAID/Lebanon Should Strengthen Its Data Reporting...................................... 24

Evaluation of Management Comments .......................................................................28
Appendix I—Scope and Methodology......................................................................... 31
Appendix II—Management Comments........................................................................ 33
Appendix III—History of Modifications to the Task Order ........................................ 41
Appendix IV—Work Plan Activities for Calendar Years 2008 and 2009................... 42
Appendix V—Indicator Results for Calendar Years 2008 and 2009 ......................... 52
Appendix VI—Total Costs of Renovated Facilities .................................................... 58
Appendix VII—Engineering Consultants’ Recommendations .................................. 59
Appendix VIII—Comparison of Air-Conditioning Systems ....................................... 60
Appendix IX—Price Comparison Analysis of Renovated Facilities ......................... 61
Appendix X—Questioned Costs .................................................................................. 62
SUMMARY OF RESULTS
According to USAID/Lebanon, Lebanon's judiciary has not had the resources it needs for
more than 30 years. The judiciary’s overwhelming number of cases and urgent need for
more and better-trained judges has challenged this judicial system. Moreover, the
independence of the judiciary in Lebanon has been historically weakened by the
authorities vested in the Government of Lebanon’s executive branch. International
standards for separation of the judicial, legislative, and executive branches are not the
norm in Lebanon. The Lebanese executive branch of government includes the
President, Prime Minister, and cabinet of ministers. Within the judicial branch, the
Supreme Judicial Council is a 10-member council that is responsible for appointing,
promoting, and transferring judges but is subject to the approval of the Minister of
Justice. The Minister of Justice, as a member of the executive branch, approves the
appointments made by the Supreme Judicial Council, but the council, as a part of the
judicial branch, is supposed to function independently. On an institutional level, the
President and the cabinet jointly approve appointment of 8 of the 10 council members.
To encourage judicial independence and promote an effective court system,
USAID/Lebanon launched the Strengthening the Independence of the Judiciary and
Citizen Access to Justice in Lebanon Project in 2007.

USAID/Lebanon awarded a 3-year, $8.2 million cost-plus-fixed-fee completion task
order 1 to the National Center for State Courts (NCSC) to implement a rule of law project,
beginning December 11, 2007, and planned to end on December 9, 2010 (Appendix III).
USAID awarded this task order under an indefinite-quantity contract to NCSC that
USAID/Egypt had competed previously to help regional missions in the Middle East
implement their strategic objectives in the area of justice. NCSC designed its rule of law
program, with one broad objective and three components, to increase the effectiveness
and independence of the Lebanese judicial system with (1) better educated judges, (2)
more efficient and transparent courts and legal processes, and (3) frameworks that
support judicial independence and impartiality.

As of December 2009, USAID/Lebanon had a portfolio of programs with an estimated
value of $201 million in education, economic growth, democracy and governance, and
reconstruction and wastewater projects. The democracy and governance portfolio is
valued at $74 million or approximately 37 percent of the mission’s entire portfolio. Within
USAID/Lebanon’s democracy and governance portfolio, the Strengthening the
Independence of the Judiciary and Citizen Access to Justice in Lebanon Project is the
only rule of law program and makes up 11 percent of the value of the mission’s
democracy and governance portfolio. From December 11, 2007, to December 31, 2009,
USAID/Lebanon modified the task order seven times and expended $4.5 million—more
than half of $8.2 million of obligated funds—for its rule of law program activities. Of the
total, USAID/Lebanon expects to pay at least $1.9 million—$678,000 for renovation and
refurbishment activities at a court building and $1.2 million at a building planned to
become a judicial training facility.


1
 A cost-plus-fixed-fee completion task order is a contract that requires the contractor to complete
and deliver a specified end product as a condition for the payment of a fixed fee.



                                                                                                 4
The Regional Inspector General/Cairo conducted this audit as part of its fiscal year (FY)
2010 annual audit plan. The audit was designed to answer the following questions:

   Is USAID/Lebanon’s rule of law program achieving its main goal of increasing the
    effectiveness and independence of the Lebanese judicial system?

   Did USAID/Lebanon’s program reports provide stakeholders with complete and
    accurate information on the progress of the activities and the results achieved?

USAID/Lebanon’s rule of law program is not achieving its main goal of increasing the
effectiveness and independence of the Lebanese judicial system, and reported results
have been inaccurate. To achieve the main goal, the implementer had planned to
complete activities under eight major tasks.         According to NCSC officials, judicial
independence is the task most critical to achieving the main goal of the program. Under
this task, the implementer did not complete any activities on legal journalism and
cancelled two of the activities planned for developing consensus for institutional judicial
independence between the Ministry of Justice and Supreme Judicial Council. The two
activities included a regional colloquium on judicial independence and an assessment for
a judges’ association, and they were cancelled because of a lack of support from
Lebanese Government officials.

Moreover, from January 2008 to December 2009, the program completed 50 percent of
its activities. In fact, the $8.2 million program achieved only 7 percent of its results in
2008 and 43 percent of the results in 2009 (page 7). In addition, USAID/Lebanon
significantly overstated results for 10 of 12 of the program performance measures that
the mission reported to Congress and stakeholders during FY 2008 and 2009 (page 25).

In attempting to achieve the goal of its rule of law activities, USAID/Lebanon and its
implementer experienced numerous difficulties that resulted in increased costs and
questioned costs valued at approximately $231,000 (pages 15, 17). USAID/Lebanon’s
activities suffered primarily for the following reasons:

   The mission did not perform adequate management oversight of activities (pages 11,
    22).
   The implementer did not perform renovation activities required by the Federal
    Acquisition Regulation (page 11).
   The mission paid for activities outside of the scope of work (page 18).

The mission could have put funds to better use and saved more than $160,000 by
increasing oversight of costs for project supervision, negotiating prices for contracting
services, and selecting lower-priced materials suitable for the function of buildings in
refurbishing a model Lebanese court and judicial training center valued at $1.9 million
(page 15).

Moreover, USAID/Lebanon used program funds valued at $71,000 to pay questioned
costs (1) for costs that were incurred prior to task order modification (page 17), (2) for
activity expenses that were outside the scope of work (page 18), and (3) ineligible or
unallowable staff fees and benefits (page 20).




                                                                                         5
Consequently, the first 2 years of project implementation were hampered by inadequate
implementer management, weak mission oversight, staffing losses because of
dismissals and resignations, and a 6-month work stoppage by the Government of
Lebanon (page 8).

USAID/Lebanon has the potential to better protect the U.S. Government’s investment in
its rule of law activities by strengthening various management controls over the program
activities. The controls include:

   Taking measures to ensure sustainability on building uses (page 9)
   Providing more oversight of renovation and refurbishment work (page 11)
   Ensuring that funding requests and expenditures are appropriate (pages 16, 17)
   Developing negotiation points for tax exemptions (page 21)
   Strengthening program oversight of contractor’s performance (page 22)
   Ensuring that the mission reports provide accurate and complete information to
    stakeholders (page 24).

The audit’s scope and methodology are described in Appendix I.

The report includes 14 recommendations. On the basis of actions taken by the mission
and supporting documentation provided, management decision has been made on all 14
recommendations. The mission took final action on Recommendations 1, 3, 5, 9, 10, 11,
12, and 13. Management’s comments are included in their entirety in Appendix II.


Abbreviations

The following abbreviations are used in this report:

COTR        contracting officer’s technical representative
FAR         Federal Acquisition Regulation
FY          fiscal year
GAO         U.S. Government Accountability Office
JTI         Judicial Training Institute; the training institute
NCSC        National Center for State Courts
RIG         Regional Inspector General




                                                                                      6
AUDIT FINDINGS
Is USAID/Lebanon’s rule of law program achieving its main goal
of increasing the effectiveness and independence of the
Lebanese judicial system?
USAID/Lebanon’s rule of law program is not achieving its main goal of increasing the
effectiveness and independence of the Lebanese judicial system. To achieve the main
goal, USAID/Lebanon’s implementer, the National Center for State Courts (NCSC), had
planned to complete activities under eight major tasks. According to NCSC officials,
judicial independence is the task most critical to achieving the main goal of the program.
Under this task, the implementer did not complete any activities on legal journalism and
cancelled two of the activities planned for developing consensus for institutional judicial
independence between the Ministry of Justice and Supreme Judicial Council. The two
activities included a regional colloquium on judicial independence and an assessment for
a judges’ association, and they were cancelled because of a lack of support from
Lebanese Government officials.

In addition, from January 2008 to December 2009, the implementer completed only 10 of
56 (18 percent) of its rule of law activities and 18 of 56 (32 percent) of planned activities
that experienced delays ranging from 1 to 12 months. NCSC did not complete 25 of 56
(45 percent) of its activities and canceled 3 of 56 (5 percent) of the activities during this
timeframe, as shown in Table 1 and Appendix IV. The rule of law activities consisted
primarily of training, assessments, and two refurbishment and renovation activities. The
implementer’s revised performance monitoring plans and work plans showed that the
program had achieved only 7 percent of its results during 2008 and 43 percent of its
results during 2009, as shown in Table 2 and Appendix V. The audit verified that the
program had not achieved any results during fiscal year (FY) 2008 and had achieved
only three of five results during FY 2009, as reported in USAID/Lebanon’s Full
Performance and Plan Report and shown in Table 3 (page 25).


 Table 1. Status of Work Plan Activities Tested for Calendar Years 2008 and 2009

                                                                     Total No.
                   2008       Percentage     2009       Percentage                Percentage
                                                                        of
                 Activities    Achieved    Activities    Achieved                  Achieved
                                                                     Activities
Completed
as planned
                     4            13            6           24           10           18
Completed
with delays
                     9            29            9           36           18           32
Not completed       17            55            8           32           25           45
Canceled             1             3            2            8            3            5
        TOTAL       31           100           25          100           56          100




                                                                                           7
       Table 2. Status of Indicator Results* for Calendar Years 2008 and 2009

                                                                             Total No.      Total
                          2008      Percentage       2009      Percentage
                                                                                of       Percentage
                       Indicators    Achieved     Indicators    Achieved
                                                                            Indicators    Achieved
 Number of
 indicator results          3             7              18          43         21           24
 achieved
 Number of
 indicator results         42            93              24          57         66           76
 not achieved
              TOTAL        45           100              42         100         87          100
*Unaudited implementer data as updated for the audit in February 2010.

Although the program has made progress since replacing two key personnel in mid-
2009, the program has faced numerous difficulties in achieving its main goal.
USAID/Lebanon reported positive and negative program results for its rule of law
program during 2008 and 2009 for eight tasks to develop the capacity of the training
institute, enhance judicial independence, improve court administration, improve access
to justice, provide grants, and develop a long-term strategic plan for the Lebanese
judicial sector.     Although USAID/Lebanon reported some of the program’s
achievements, the mission acknowledged some of the reasons that limited the
accomplishment of its goal (see Appendix IV).

The first 2 years of program implementation were hampered by a shift in program focus
on renovation tasks that were not critical; loss of credibility with and resistance from
some Lebanese counterparts; staffing losses resulting from employee dismissals and
resignations; lack of program leadership by the implementer; and significant program
revisions. Although USAID/Lebanon’s rule of law program was designed to increase the
effectiveness of the Lebanese judicial system with better trained judges, Lebanese
Government officials did not need some of the training activities because another
international donor was conducting similar trainings. Moreover, some activities fell
behind schedule because of weak management by the implementer, inadequate
oversight by USAID/Lebanon, and the formation of a new government following
parliamentary elections that delayed government business for 6 months

For 2 years, USAID/Lebanon and its implementer have proceeded slowly in conducting
rule of law activities within Lebanon. Although the implementer completed about 50
percent of its rule of law activities, at a cost of $4.5 million, the implementer has planned
to expend much of the USAID funds ($1.9 million) on construction and has revised some
of the planned training activities because of insufficient planning. For the program to be
successful, USAID/Lebanon will need to strengthen its internal controls and attention to
management reviews over administrative and program activities and documentation.
Specifically, USAID/Lebanon should take the following actions:

   Ensure sustainability of and commitment to program activities
   Strengthen oversight over renovation activities
   Ensure that funding requests are appropriate
   Strengthen management controls over expenditures



                                                                                                  8
   Negotiate tax exemption for USAID-funded property
   Strengthen program oversight
   Strengthen its data reporting


USAID/Lebanon Should Obtain
Commitment From Beneficiaries
The Department of State and USAID’s joint Strategic Plan, Fiscal Years 2007–2012
discusses the concept of transformational diplomacy as a relationship wherein U.S.
assistance plays a catalytic role in supporting a host country’s national vision for
advancement.       However, the primary responsibility for achieving transformation
ultimately rests with the developing nation’s leadership and citizens. Lasting economic,
social, and democratic progress—through a transformation of institutions, economic
structures, and human capacity—can begin with USAID development, but host
countries, as benefactors, will need to sustain further advances on their own. USAID
programs are expected to help move countries through the development process that
leads to their graduation from U.S. foreign assistance.

Also, Automated Directives System 596.3.1, “Establishing Internal Controls,” states that
USAID managers and staff must develop and implement appropriate, cost-effective
internal controls toward management that produce results. These controls include
appropriate documentation. The U.S. Government Accountability Office’s (GAO)
Standards for Internal Control in the Federal Government 2 states that all transactions
and other significant events need to be clearly documented, and the documentation
should be readily available for examination.

While USAID/Lebanon’s rule of law program supports transformational diplomacy
structurally, USAID/Lebanon did not obtain a written commitment from the Ministry of
Justice for the use of renovated JTI facilities for its intended purposes. In 2009,
Lebanon’s Supreme Judicial Council administered the first examination in 4 years and
selected 15 judge trainees to enter the training institute. 3 However, the council has not
yet identified viable candidates for the continuing training program.

In December 2008, the Lebanese Ministry of Justice entered into a lease agreement with
a private owner to rent five floors in an apartment building. Although the lease
agreement was not specific about the intended use of the building, USAID/Lebanon
expects to expend approximately $1.2 million to refurbish the space to be used as the
new training institute. At the request of the JTI director, USAID/Lebanon agreed to
modify its NCSC task order to add $1.5 million, 4 partly to refurbish five floors of an eight-
floor structure, and to renovate classrooms, offices, a kitchen, bathrooms, and an
archive room, and provide IT equipment 5 in a computer training room. The renovations


2
   GAO/AIMD-00-21.3.1 (11/99), page 15.
3
   Within the country, a law school graduate who aspires to become a judge may receive specialized judicial
training and graduate within 3 years.
4
   The mission approved Task 8 in June 2009 at an estimated cost of $1.5 million, which would include costs
for furnishing and equipment for the training institute and court.
5
    USAID/Lebanon plans to purchase IT equipment that includes computers, printers, and servers and
furnishings valued at approximately $212,000 for the training institute.


                                                                                                         9
also included demolition and alterations, concrete work, masonry, flooring, and electrical
and mechanical work.




        This eight-story building will be used for the Judicial Training Institute in Beirut, Lebanon.
                         (Photograph taken by RIG/Cairo auditor, February 2010.)

Although the Government of Lebanon and the private owner entered into a lease, the
agreement does not restrict the transfer of the use of the facility to another Lebanese
Government office. Consequently, use of the training institute may be transferred to
another governmental body, and it may be used for purposes other than judge training,
for which USAID/Lebanon has expended funds. For the past 36 years, since 1974, the
Government of Lebanon has leased the building but has transferred it among ministries.
In fact, the Ministry of Agriculture had used the leased building prior to transferring it to
the Ministry of Justice. Moreover, as a part of the lease agreement, although the
Ministry of Justice (as the lessee) has the right to alter the building, the building owner
may require the lessee to return the property to its original condition at the lessee’s
expense, upon vacating. The Ministry of Justice might be responsible for returning the
building to its original condition as apartments.

In March 2009, USAID/Lebanon’s implementer suggested that USAID/Egypt’s Regional
Contracting Office 6 obtain the Ministry of Justice’s and the training institute’s
commitment to the long-term use of the facilities. Although the Ministry of Justice gave
NCSC a verbal commitment that the ministry would use the renovated building long term
for judicial training, the Regional Contracting Office did not adequately address the issue
raised by the implementer.         USAID/Lebanon never entered into a memorandum of
understanding or agreement to document the Ministry of Justice’s guarantee that the
U.S. Government’s investment of $1.2 million for refurbishments would be used as
intended for the training institute.

U.S. taxpayers’ investments of foreign aid in developing countries should be justifiable
and sustainable to ensure that lasting economic, social, and democratic progress occurs
through a transformation of institutions, economic structures, and human capacity.
Judicial training is an essential component of USAID/Lebanon’s rule of law program to

6
    USAID/Egypt’s Regional Contracting Office is responsible for contracting actions for USAID/Lebanon.


                                                                                                          10
increase the effectiveness and independence of the Lebanese judicial system.
However, without assurance that the facilities will be used as planned, the U.S.
Government’s investment could be jeopardized. Since USAID/Lebanon did not obtain
any written commitment from Lebanese Government officials regarding the renovated
building, USAID/Lebanon cannot be assured that the training institute will be used as
intended. Consequently, the audit recommends the following:

    Recommendation 1.         We recommend that USAID/Lebanon develop a
    memorandum of understanding with the Government of Lebanon’s Ministry of
    Justice regarding a commitment to use the Judicial Training Institute for a
    specific time for its intended purpose and document the results of any
    disagreements.


USAID/Lebanon Should Strengthen
Oversight of Renovation
Activities
The FAR prescribes policies and procedures for acquisitions of supplies and services
with federally appropriated funds. FAR Part 36, “Construction and Architect-Engineer
Contracts,” documents policies and procedures regarding contracting for construction
and architect-engineer services. The guidance requires the use of certain clauses and
standard forms that are applicable to contracts for dismantling, demolishing, or removing
improvements. In addition, according to FAR Subpart 36.6, “Architect-Engineer
Services,” the Federal Government’s policy is to negotiate architect-engineer services
contracts on the basis of the demonstrated competence and qualifications of prospective
contractors to perform the services at fair and reasonable prices. Moreover, GAO’s
Standards for Internal Control in the Federal Government 7 states that internal control
should generally be designed to assure that ongoing monitoring occurs continually as an
integral part of the agency’s operations, including regular management and supervisory
activities, comparisons, and reconciliations.

During August 2008, NCSC asked USAID/Lebanon to add more activities to the task
order that would be formally approved by its regional contracting officer. After much
discussion about the refurbishment of the facilities, in June 2009 the regional contracting
officer modified the NCSC task order to add refurbishment activities for two facilities in
Lebanon’s capital—the Beirut Judgment Executions Court and the training institute. The
total estimated cost of the renovations and refurbishments at both buildings is
$1.9 million, approximately 23 percent of the total estimated cost of the rule of law
program (see Appendix VI). 8




7
 GAO/AIMD-00-21.3.1 (11/99), page 20
8
 Although the contracting officer modified the task order to add an additional $1.5 million for the renovation
work, the implementer plans to incur an additional $400,000 for renovation work, furnishings, and
equipment.


                                                                                                          11
             The renovated Beirut Judgment Executions Court in Adlieh, Lebanon.
            (Photograph provided by the USAID implementing partner, March 2010.)




             The renovated Beirut Judgment Executions Court in Adlieh, Lebanon.
           (Photograph provided by RIG/Cairo engineering consultants, March 2010.)

Initially, USAID/Lebanon and NCSC had planned to furnish a few rooms dedicated to the
training institute within the Ministry of Justice’s facilities. But the mission’s and
implementer’s plans changed after the JTI director requested that USAID refurbish five
floors of privately owned rental property in a primarily residential area in Beirut.
Although the regional contracting officer did not approve the task to prepare bid
documents for construction until March 2009, the implementer hired an architect-
engineer in November 2008 to assist in a tendering process, subcontracting, and
monitoring the construction for the training institute. Also during November 2008, the
implementer hired an architect-engineer to assist in developing architectural designs and
bidding documents and provide construction oversight for the Beirut Judgment
Executions Court.


                                                                                      12
USAID/Lebanon could have saved approximately $160,000 if the implementer had
negotiated fees and building material costs more thoroughly.          The engineering
consultants hired by RIG/Cairo reviewed and assessed the renovation and
refurbishment activities performed under USAID/Lebanon’s subcontracts for the rule of
law program. RIG/Cairo’s engineering consultants identified several problems regarding
(1) management and supervision, including oversight of technical specifications, and
(2) execution of the construction works that USAID/Lebanon and NCSC will need to
address. The engineering consultants prepared a technical report that included
numerous observations needing immediate action for correction. Specifically, the
engineering consultants’ report included 11 recommendations for specific improvements,
which are summarized in Appendix VII.


Renovation Program Management and Supervision

   USAID/Lebanon paid somewhat higher than normal fees for the architect-engineer
    hired to supervise the refurbishment and renovation programs in relation to the value
    of job and type of work to be performed. NCSC could have decreased paid costs by
    $30,000 by negotiating the architect-engineer’s fees.

   Although NCSC had hired an architect-engineer with suitable technical qualifications
    for the required scope of work, the implementer did not ensure that management
    reviews were provided to electromechanical staff by qualified technicians trained in
    heating, air-conditioning, electrical, and plumbing services.

   NCSC’s architect-engineer could have selected building materials suitable to the
    function of high-traffic areas. Selecting local building materials such as marble and
    ceramic tile could have reduced material costs by at least 25 percent ($40,000). For
    example, the subcontractor used high-quality imported marble and porcelain for the
    floors in the model court, when a lower-quality product would have been less costly
    and just as suitable to the function of a high-traffic area.

   The NCSC architect-engineer allowed some changes to specifications for an air-
    conditioning system that will be more costly to court beneficiaries in the future. At
    the request of the Lebanese Ministry of Justice, the implementer changed the central
    air-conditioning system (chiller) to install individual units (a DX system). The change
    superficially reduced the initial system cost by $26,000. Although the initial cost of a
    chiller system is higher than a DX system, the operational cost of a chiller system is
    less than a DX system by about 10 percent—making the chiller system a better
    choice, as shown in Appendix VIII.




                                                                                         13
                   Partial heating and air-conditioning ventilation work begun
                      at the JTI in Beirut, Lebanon. (Photograph taken by
                                RIG/Cairo Auditor, February 2010.)

   RIG/Cairo engineering consultants reported that all testing and commissioning for
    the electricity, air-conditioning, computer system, and plumbing at the Judicial
    Training Institute must be performed in accordance with international qualifications
    and codes. These required tests should be performed in the presence of both the
    construction project supervisor and the subcontractor.




                     Electrical wiring begun at the JTI in Beirut, Lebanon.
                   (Photograph taken by RIG/Cairo Auditor, February 2010.)



Execution of the Construction Works

   NCSC did not negotiate contract prices with the general contractor and other
    contractors that had submitted proposals to reduce costs before selecting a
    contractor and making an award to perform the construction work for the model court
    and judicial training buildings.



                                                                                     14
   NCSC did not ensure that renovation costs were adequate, by comparing the high
    cost of work performed to the overall quality of work performed, which was slightly
    below required specifications. Costs for building materials could have been
    decreased by 10–15 percent, on the basis of current market prices as of April 2010,
    resulting in savings of approximately $130,000 (11 percent). Consequently, total
    renovation costs, to date, have been higher. For example, NCSC paid over
    $4,000—22 percent higher than market rates—for the masonry work, as illustrated in
    Appendix IX.




                         Renovation work begun at the JTI in Beirut, Lebanon.
                       (Photograph taken by RIG/Cairo Auditor, February 2010.)

Although a grand opening for the Beirut Judgment Executions Court was held in March
2010, the training institute was only 50 percent complete as of April 2010. The mission
expected NCSC to complete the remaining construction by June 2010.

USAID/Lebanon’s construction at the training institute was beset with problems. USAID
could have saved approximately $160,000 if the implementer had negotiated costs and
purchased alternative suitable materials. USAID/Lebanon and NCSC could not complete
construction projects tasks on schedule because of construction delays, incomplete work
performance, and inadequate supervision. The implementer stated that delays had
occurred initially because the solicitation of the subcontractors needed to be rebid. The
original solicitation had not complied with a FAR statute requiring that architect-engineer
services contracts be negotiated on the basis of the demonstrated competence and
qualifications of prospective contractors to perform services at fair and reasonable
prices.

The U.S. Government’s investment of resources for renovation activities supporting
USAID/Lebanon’s rule of law program should provide a return on investment. Although
mission officials expect the costs for renovation activities, furnishings, and equipment to
reach more than $1.9 million, the total renovation costs could well exceed the estimate if
management oversight is not strengthened. To prevent further delays and ensure that a
quality product is delivered at the best price, the audit recommends the following:

    Recommendation 2.     We recommend that USAID/Lebanon review the
    recommendations documented in the engineering consultant’s technical report, 9

9
  See pages 6–8 of the engineering consultant’s technical report, Technical Assistance for the Examination
of the Status of Construction Work Funded by USAID for Two Facilities in Beirut, Lebanon, April 28, 2010.


                                                                                                       15
     require the implementer to implement the recommendations, and document
     justifications for any deviations from the recommendations contained in the
     technical report.


USAID/Lebanon Should Ensure That
Funding Requests Are Appropriate
USAID guidance on forward funding generally prohibits program managers from carrying
obligations for more than 12 months beyond the end of the fiscal year in which the
obligation takes place [ADS 602.3.2]. 10 However, Automated Directives System 602.3.3,
“Exceptions to the Maximum Length of Forward Funding,” states that some flexibility is
required to facilitate the execution of some activities, if compelling reasons exist.
Operating unit directors have the authority to approve exceptions to the policy directives
and required procedures, if compelling reasons exist and are documented. For
example, an exception for new programs is made that allows full funding to be provided
at the outset if a new program is under $2 million. If a new program costs $2 million or
more, obligations must be sufficient to cover at least the first 18 months but not more
than 24 months.

Although USAID/Lebanon had obligated $4.7 million for its rule of law program, the
mission had expended only $317,000 prior to a modification to fully fund the task order in
September 2008. Moreover, during the same period, the implementer had not
completed many activities or achieved program results.       Despite the program’s weak
performance, in September 2008 the mission director approved a waiver that allowed
USAID/Lebanon to fully fund the task order and provide advance funding to the rule of
law program for more than 24 months. In a waiver request to the mission director, the
COTR cited “major renovation” of the training institute and an “unanticipated opportunity
to take a leadership role in an overall operational planning process for the entire
[Ministry of Justice]” as compelling reasons for the waiver. After the mission director had
signed the waiver for additional funding of the program, the regional Financial
Management Office fully funded the program before the regional contracting officer had
approved adding the two additional tasks in March and June 2009. Moreover, that
office’s staff did not have the supporting contract documentation with the waiver to verify
the propriety of the funding. Consequently, the waiver request was based on a false
justification since the task order had not been modified.

A waiver to fully fund the rule of law program helped the mission in two ways. Using a
waiver, USAID/Lebanon would be allowed to use 2007 Economic Support Fund
supplemental funds to pay for the program in full and proceed with plans to add tasks to
the program. Otherwise, if the mission did not use the supplemental funding or 2-year
funds by September 2008, USAID/Lebanon would no longer be able to use the funds.
Although the mission director approved the waiver, the regional contracting officer had
not approved the mission’s request to modify tasks.

Since the implementer reported achieving only 7 percent of its planned activities during
2008, mission managers should be vigilant to exercise extreme caution in expending

10
   The availability of funds to support future expenditures for a specified time period after a planned
obligation. This definition of forward funding applies to the use of program funds. (ADS 602)


                                                                                                    16
more funds on an unsuccessful program. Decisions to fully fund the program with little
regard for achieving intended results increase the risk that scarce resources will be
expended on programs with poor performance and few results. Therefore, the audit
recommends the following:

   Recommendation 3. We recommend that USAID/Lebanon develop written
   procedures regarding the required support documentation that should
   accompany waiver requests for funding.


USAID/Lebanon Should Ensure That
Costs Are Appropriate
Automated Directives System 596.3.1, “Establishing Internal Controls,” states that
managers must implement appropriate, cost-effective internal controls that reasonably
ensure that obligations and costs comply with applicable laws and regulations.
Moreover, these controls should reasonably ensure that assets are safeguarded against
waste, loss, unauthorized use, or misappropriation.

USAID/Lebanon paid approximately $71,000 for program expenses that included costs
for unauthorized renovation activities and ineligible or unallowable staff fees and
benefits. The mission relied on the COTR and implementer to review contractual and
financial data for expenditures to ensure that they were consistent with the terms of the
task order and properly supported. In this regard, USAID/Lebanon paid for some
unauthorized renovation activities, unauthorized program activities, and questioned
ineligible costs for implementer staff benefits.


USAID/Lebanon Authorized Expenditures for
Unapproved Renovation Activities

Automated Directives System 634.3.2, “General Standards for Funds Control,” states
that obligations and expenditures may not be authorized or incurred in excess of
available funds.

USAID/Lebanon’s implementer, NCSC, had incurred $37,600 for engineering services
during 2008 before the regional contracting officer approved modifications authorizing
the mission to incur costs for renovation activities in March 2009. The mission initially
obligated $4.6 million of $6.7 million (70 percent) for program activities and wanted to
include additional renovation activities for two Lebanese facilities. Modifications to the
program required additional funding of $1.5 million for two renovation/refurbishment
projects at the Beirut Judgment Executions Court and at the training institute.

The original scope of work required the implementer to develop the capacity and the
infrastructure of the existing training institute located in the Ministry of Justice’s building
complex and to provide equipment, furniture, training, and technical assistance for the
institute. The training institute at that time was a one-room facility that had a restroom
two floors above the training room. In 2004, the Council of Ministers approved the




                                                                                            17
Ministry of Justice’s use of another leased building as the new location for its training
institute, and in 2008 the JTI director requested the mission’s support for the
refurbishment of the “new” facility that was to be renovated, to include classrooms and a
computer lab on five of eight floors in the selected building.

Although the implementer had submitted a proposal and a budget for the refurbishment
work for the two facilities, the regional contracting officer refrained from issuing a task
order modification unless a review of the estimated costs for the refurbishment of the
training institute was performed. Consequently, in March 2009, the regional contracting
officer issued modification no. 4, which outlined the requirements for an assessment,
cost estimates, and the procurement of a general contractor. NCSC had hired an
engineer for the project, terminated the contract because of poor performance, and
restarted the procurement for an architect-engineer, following instructions outlined in
modification no. 4. During November and December 2008, NCSC made payments
valued at $37,600 to two engineers, including the terminated engineer, for both facilities.
The implementer billed $37,600 to USAID for services rendered by the two engineers
during the period of November 1 to December 31, 2008, prior to the task order
modification no. 4.

USAID/Lebanon and NCSC’s management control activities have been inadequate.
NCSC stated that the implementer’s staff was not knowledgeable about federal
regulations to procure engineering services. Furthermore, since funds had not been
approved or obligated for engineering services, USAID/Lebanon should have requested
that the implementer not begin any work or incur costs for any activities related to the
refurbishment work until the regional contracting officer had appropriately and
administratively issued a modification to the task order.

USAID mission managers are required to implement appropriate, cost-effective internal
controls for results-oriented management to ensure the financial integrity of its programs.
USAID/Lebanon must make sure that Agency funds are expended only for appropriately
authorized activities. Program funds that were inappropriately expended could have
been invested in approved activities for strengthening the judiciary in Lebanon. The
audit recommends the following:

   Recommendation 4. We recommend that USAID/Lebanon ask the Regional
   Contracting Office to make a management decision regarding the allowability of
   questioned ineligible costs in the amount of $37,600, paid prior to the task order
   modification no. 4, and recover amounts determined to be unallowable.

   Recommendation 5. We recommend that USAID/Lebanon establish written
   procedures regarding actions required for approvals of activity expenditures and
   provide them to the implementer.



USAID/Lebanon’s Implementer Performed
Unauthorized Program Activities

Automated Directives System 202.3.6.1, “Assessing Performance of Contractors and




                                                                                        18
Recipients,” states that the COTR 11 for direct procurement instruments must ensure that
the implementing partner is performing in accordance with the terms contained in the
contract or other agreements. It also states that COTR responsibilities for monitoring
contractor performance may include reviewing and approving deliverables and
performance reports.

From July 2008 to March 2009, NCSC inappropriately paid two subcontractors $26,052
for legal journalism activities that were not part of the original scope of the task order for
the rule of law program. 12 During 2008, NCSC’s chief of party proposed the activity to
the Ministry of Justice without requesting an amendment to the task order from
USAID/Lebanon. To carry out program activities, the implementer awarded to a local
consultant a subcontract that included developing a means to formalize regular media
access to court proceedings, advocate legal journalism training at universities, obtain the
Ministry of Justice’s recognition of certified legal journalists, and work with the courts to
establish rules for media access to court activities. In December 2008, the implementer
awarded a second subcontract to another consultant to provide legal journalism training.

The legal journalism activities were politically sensitive because they allowed the media
to criticize the judges and Ministry of Justice. In fact, the program was a source of
contention between NCSC officials and the Minister of Justice. NCSC reported in its
quarterly reports that a Lebanese newspaper editor’s association had sent letters of
protest to the U.S. Ambassador and USAID/Lebanon’s mission director for not being
invited to a program event. Moreover, the association publicized objections to
professionalizing legal journalism and the exclusion of the association from the mission’s
rule of law program. Consequently, the NCSC deputy chief of party terminated both
subcontracts between February and March 2009, and the NCSC’s chief of party
cancelled the journalism activities.

USAID/Lebanon did not exercise prudent management controls to safeguard program
assets against waste and unauthorized use. USAID/Lebanon’s COTR stated that the
rule of law program was monitored by mission staff who participated in meetings and
had other communications with the implementer’s field and home office staff. Although
NCSC had reported in its work plans that the implementer was pursuing legal journalism
activities and that NCSC’s staff had informed the mission’s COTR about the local
protests over the legal journalism activities, USAID/Lebanon’s mission staff approved
payments for unauthorized activities that beneficiaries did not want.

Agency policy requires managers to establish controls to ensure that assets are
safeguarded against waste. Since mission managers did not conduct adequate
management reviews at the various levels of the program, USAID/Lebanon paid for
activities that were outside the scope of the task order and that the benefactors did not
desire for its rule of law activities. These resources could have been better invested in
more relevant activities to advance the program’s objective. Consequently, because
legal journalism was not a part of the scope of work for USAID/Lebanon’s rule of law


11
   The Automated Directives System (ADS) 202 (revised September 1, 2008) uses the title “cognizant
technical officer” (CTO), which this report replaces with the title “contracting officer’s technical
representative” (COTR), in accordance with USAID policy (USAID/General Notice, “Revisions to Cognizant
Technical Officer (CTO) Policy,” Notice 15970, January 23, 2009).
12
   As of the billing period ending on November 30, 2009, NCSC had billed USAID $22,902 for legal
journalism activities.


                                                                                                   19
activities, the audit recommends the following:



    Recommendation 6. We recommend that USAID/Lebanon ask the Regional
    Contracting Office to make a management decision regarding the allowability of
    questioned ineligible costs in the amount of $26,052 and recover all amounts
    determined to be unallowable.


USAID/Lebanon Paid
Ineligible Charges for Staff Benefits

NCSC’s Subcontract SC-07-06, Section A.6, with its subcontractor, America-Mideast
Educational and Training Services, Inc. (AMIDEAST) 13 states that overtime and
premium pay are not authorized and defines the work week as Monday to Friday. Given
52 weeks per year and a 5-day work week, a work year constitutes only 260 workdays.

NCSC hired the nonprofit organization AMIDEAST as a subcontractor to help implement
USAID/Lebanon’s rule of law program. On December 21, 2007, NCSC awarded
AMIDEAST a $1,638,151 contract to provide a consultant as a senior judicial training
adviser for 24 months and a full-time local staff person as a training and grants manager.
The consultant managed the refurbishment and renovation activities for the training
institute and was also responsible for managing training activities and a grants program
to enhance public engagement, support reform activities, and foster a culture of respect
for rule of law.

During a 12-month period from March 3, 2008, to February 28, 2009, NCSC overpaid
the AMIDEAST consultant by $7,010 for 273 workdays. The consultant—who was also
the NCSC deputy chief of party—had not been authorized to perform work in excess of
260 workdays. AMIDEAST billed NCSC $147,216 for 273 workdays, which included
direct-charged labor plus absences. Of the 273 workdays, the subcontractor billed 236
direct workdays to the program and paid the staff person a salary of $122,146. In
addition, AMIDEAST billed NCSC 37 days in absences, valued at $25,070, as an
indirect cost. The 37 days of absences included 15 days for rest and recuperation, 10
regular U.S. holidays, and 12 local holidays. As a result, AMIDEAST overcharged
NCSC for $7,010 in direct and indirect labor costs for 13 days more than authorized, as
illustrated in Appendix X.

AMIDEAST budgeted $122,662 for the consultant’s salary on the basis of 238 workdays
for 2008. In 2009, AMIDEAST budgeted $140,700 for the consultant’s salary for 260
workdays for the year. According to AMIDEAST’s director of accounting, the budgeted
salaries for both years included direct-charged labor plus absences. The implementer’s
reviews of the subcontractor’s invoices did not prevent or detect errors that invoice costs
for staff benefit payments were allocable or allowable.

Management control activities for USAID programs and operations should be effective

13
   USAID/Lebanon has also hired AMIDEAST under two agreements to implement a grants program and a
professional training program, valued at $11 million.




                                                                                              20
and efficient. These controls include reviews by management of activities such as
approvals, authorizations, verifications, and reconciliations. USAID/Lebanon and its
implementers share a critical role to ensure, among other things, that transactions are
allowable, reasonable, and properly supported. Since questioned costs unnecessarily
decreased available resources for other program activities, this audit recommends the
following:

   Recommendation 7. We recommend that USAID/Lebanon ask the Regional
   Contracting Office to make a management decision regarding the allowability of
   questioned ineligible costs of $7,010 and recover all amounts determined to be
   unallowable.

   Recommendation 8. We recommend that USAID/Lebanon request an agency-
   contracted audit of the implementer’s locally incurred costs to determine whether
   the recipient complied, in all material respects, with contract terms.



USAID/Lebanon Should Develop
Negotiation Points for Tax Exemptions
for USAID-Funded Property
USAID/Lebanon operates its programs under a technical cooperation agreement that the
Governments of the United States and Lebanon signed in 1951. The agreement offers
customs duties exemption privileges to USAID and the Department of State staff but
does not provide tax protection to implementers of U.S. Government programs.
Accordingly, implementers have no protections from payment of local taxes, customs
duties, or levies. Although Automated Directives System 155.3.2, “Tax Exemptions,”
sets forth USAID’s general policy that USAID assistance should be exempt from host
government taxes and customs duties, the policy is not self-executing. The policy states
that operating units must negotiate exemptions with a host government to include
exemption clauses in bilateral agreements, strategic objectives grant agreements, and
other agreements.

On June 17, 2009, USAID/Lebanon signed a memorandum of understanding with the
Ministry of Justice to provide, among other things, exemptions from local taxes and
customs duties for commodities associated with the rule of law program. However,
NCSC encountered difficulties for the exemption because the Ministry of Finance has
authority over taxation matters, and the Government of Lebanon does not recognize the
memorandum of understanding. The implementer did not receive a tax exemption from
the Ministry of Finance until June 2009, a year and half into the implementation of the
program.

According to the implementer, NCSC experienced difficulties securing tax and customs
duties exemptions from the Government of Lebanon; as a result, the implementer
reported the payment of $3,952 in value-added taxes for program purchases over $500
for FY 2008. In addition, the implementer issued two subcontracts for the refurbishment
of the Judicial Training Institute and the Beirut Judgment Executions Court with value-
added taxes to be paid to local authorities amounting to $52,655.

In the past, attempts to negotiate exemptions for USAID/Lebanon programs have been


                                                                                       21
unsuccessful. The regional legal advisor stated that these negotiations failed because
the Government of Lebanon has been reluctant to sign a bilateral agreement, most likely
because it does not want to grant tax exemptions. The regional legal advisor stated that
until a bilateral agreement is successfully brokered, the mission’s contracting officials
should allow the payment of value-added tax, on a case-by-case basis, if it is evident
that the implementer exhausted all possible venues to avoid the payment of value-added
taxes.

Historically, the U.S. Congress has expressed concern that U.S. assistance in
developing country populations not be diverted to the treasuries of foreign
governments. 14 Since value-added taxes are revenues based on local purchases
sometimes valued at millions of dollars, these tax payments decrease the availability of
scarce resources for program activities. Therefore, this audit reinstates a prior audit
finding, 15 as follows:

     Recommendation 9. We recommend that USAID/Lebanon, in cooperation with
     the regional legal advisor, develop written procedures for negotiations to protect
     USAID-funded property from being subjected to taxes and customs duties
     imposed by the host country government.

     Recommendation 10. We recommend that USAID/Lebanon, in cooperation
     with its Regional Contracting Office, develop written procedures for incurring
     costs for taxes and customs duties imposed by the host country government.


USAID/Lebanon Should Strengthen
Program Oversight
In USAID’s Automatic Directives System (ADS) Chapter 302, Procedures for
Designating the Contracting Officer’s Technical Representative (COTR) for Contracts
and Task Orders 16 states that the COTR is in a unique position to monitor the
contractor’s performance and is delegated authorities that are otherwise vested in the
contracting office. The COTR is expected to monitor the contractor's performance, verify
that it conforms to the technical requirements and quality standards, and document and
elevate any material deficiencies in the contractor's performance to the contracting
office. Accordingly, the COTR’s approval of implementation plans, work plans, or
monitoring or evaluation plans must be consistent with the terms and conditions of the
contract.

During the life of the rule of law program, two USAID/Lebanon staff served as the
COTRs for the mission’s rule of law program. However, neither staff member sufficiently
reviewed the implementer’s activities, for several reasons.         According to the
implementer, USAID/Lebanon’s previous COTR seldom visited the implementer during

14
    GAO, “Foreign Assistance: USAID and the Department of State Are Beginning to Implement Prohibition
on Taxation of Aid,” Report No. GAO-04-314R, February 20, 2004.
15
   In a previous audit, , RIG/Cairo recommended that USAID/Lebanon consult with the regional legal advisor
on measures needed to protect USAID-funded property from being subjected to taxes and customs duties
imposed by the host country government (“Audit of USAID/Lebanon’s Lebanon Education Assistance for
Development Program,” Audit Report No. 6-268-09-005-P, July 14, 2009).
16
   A mandatory reference for ADS 302, “USAID Direct Contracting,” ADS 302.4.2q.


                                                                                                      22
2008 and 2009. Further, because of the disruption of staffing changes, USAID/Lebanon
did not verify the implementer’s reported results or maintain documentation of significant
program management decisions. Instead, the COTRs relied in part on reading quarterly
reports to obtain information about the program activities. In numerous examples during
2008 and 2009, the mission’s COTRs were not aware that planned activities had not
occurred and did not know the reasons for delays.

Moreover, although USAID/Lebanon measured the results of the program primarily by
reading the implementer’s performance monitoring plans, the implementer’s reports
were not consistent or complete. Specifically, the audit found that:

    From 2008 to 2009, the implementer dropped 42 of 45 indicators from the work plan.
     During 2009, the implementer reported on 43 indicators, of which 40 (93 percent)
     were newly established indicators.

    The implementer reported on a calendar year basis rather than USAID’s fiscal year
     basis. This problem was corrected for FY 2010.

    In its quarterly reports, the implementer did not clearly indicate whether actual data
     were cumulative or only for the quarter. The implementer also did not report on
     annual or life-of-program data because reporting this data was not required.

    USAID/Lebanon did not verify the performance monitoring plan data. The current
     COTR did not verify reported data or request to see supporting documentation for
     reported results.

The mission did not ensure that documentation of significant management decisions was
maintained for the program to provide continuity. Although the prior USAID/Lebanon
COTR had insisted that numerous write-ups from meetings had been left at the mission
after a staff reassignment, the current COTR stated that only two meeting write-ups with
the implementer could be found for the period from December 2007 to October 2009.
Since the COTR had very limited knowledge about the rule of law program, many of the
historical management decisions were not available. When the staff person tried to
locate and open electronic program files, the electronic folder of information could not be
accessed. 17

Furthermore, the current COTR did not know many details regarding the program and
did not know the history of the program, details of specific work plan activities, reasons
for delays for the renovation and refurbishment activities, or reasons for the
modifications to the task order. Although the mission’s regional contracting officer had
designated the current COTR as an alternate in February 2009, the COTR had limited
knowledge of the program prior to October 2009.

Compounding the problems that kept USAID/Lebanon from achieving program goals
were the significant staffing issues that occurred during FY 2009. The mission cited
budget increases and inadequate staff as reasons for insufficient program management.
Frequent turnover of key managers at USAID/Lebanon and NCSC also deterred the
program. During the program implementation, USAID/Lebanon’s mission director and

17
   Although the COTR stated that he had left behind his electronic files in directories, the current
representative could find only limited information regarding the program prior to October 2009.


                                                                                                 23
COTR changed during October 2008 and October 2009, respectively.              NCSC
reassigned the program director in November 2008 and terminated the chief of party in
February 2009. The positions for chief of party and a task manager, who were
responsible for key functions and six of eight major tasks, were vacant for up to
3 months during this transition.

USAID/Lebanon’s internal controls over the program were not adequate to ensure that
historical data for continuity and review were maintained for proper accountability over
its records. Because the American people entrust the stewardship and management of
public funds to USAID, mission management must ensure that program oversight
addresses problems that may impede desired results and weaken accountability and
credibility. When mission staff participate directly with implementers, managers can
identify and resolve performance issues promptly. Although the implementer anticipates
needing a program extension to complete work, further expenditures are questionable
since USAID/Lebanon’s rule of law program has produced few if any results in the first 2
years of a 3-year program. Consequently, the audit recommends the following:

   Recommendation 11. We recommend that USAID/Lebanon develop and
   document a checklist of required information to monitor completion of work plan
   activities.

   Recommendation 12. We recommend that USAID/Lebanon develop written
   procedures for access requirements, transfer, and maintenance of electronic
   program files.

   Recommendation 13. We recommend that USAID/Lebanon document and
   publicize requirements for its electronic records retention and link them to an
   official staff-departure checklist.



Did USAID/Lebanon’s program reports provide stakeholders
with complete and accurate information on the progress of the
activities and the results achieved?
USAID/Lebanon’s program reports on its rule of law program did not provide
stakeholders with complete and accurate information on the progress of activities and
the results achieved. In USAID/Lebanon’s FY 2008 and 2009 full performance plans
and reports, USAID/Lebanon inaccurately and incompletely reported on 10 of 12
measures of performance tested.


USAID/Lebanon Should Strengthen
Its Data Reporting
Under ADS 203.3.5.1, “Data Quality Standards,” USAID missions should ensure that
performance data meet five data quality standards—validity, integrity, precision,
reliability, and timeliness. USAID missions should ensure that data quality standards are
met so that performance data are useful in managing for results and credible for
reporting. Moreover, USAID’s Performance Management Toolkit provides guidance to


                                                                                      24
operating units to periodically sample and review the implementing partner’s data to
ensure completeness, accuracy, and consistency.

To monitor the program, the current USAID/Lebanon COTR did not measure progress or
results against the scope of work and work plan. Without comparing specific work plan
activities to the quarterly reports, the mission could not be assured that its reports were
accurate, that specific activities were completed on time, or that intervening actions were
necessary. In response to audit requests for verifiable information during the audit, the
COTR created a chart to track pertinent information and completion dates for FY 2010
work plan activities to use for program management and monitoring.

In USAID/Lebanon’s FY 2008 and 2009 performance reports to USAID/Washington,
USAID/Lebanon inaccurately reported on 10 of 12 18 measures of performance that
RIG/Cairo had tested and verified, as shown in table 3.

                         Table 3. Full Performance Plan and Report for
                            Judicial Independence (FY 2008–2009)

                                FY 08     Actual                          FY 09      Actual
     Performance Indicator                          Verified   Achieved                        Verified    Achieved
                                Target   Reported                         Target    Reported
 1 Number of judges trained     None        5          0         No         40        264        155           Yes
 2 Number of women              None        2          0         No         15        132         84           Yes
 3 Number of men                None        3          0         No         25        132         71           Yes
   Number of campaigns
   and programs to enhance
   public understanding,
   NGO support, and media       None        4          0         No         8          4           5           No
   coverage of judicial
   independence and
 4 accountability
   Number of laws,
   regulations, and
                                None        1          0         No         2          1           0           No
   procedures related to
 5 judicial independence
   Number of merit-based
   criteria or procedures for
                                None        0          0         No       Dropped   Dropped    Dropped     Dropped
   justice sector personnel
 6 selection adopted
   Number of regulations or
   procedures that improve
                                None        0          0         No       Dropped   Dropped    Dropped     Dropped
   judicial transparency
 7 adopted


In USAID/Lebanon’s Fiscal Year 2008 Full Performance Plan and Report, the mission
reported positive results for five of seven measures of performance tested and no results
for two of the performance measures. However, the audit found that no results were
actually achieved for any of the mission’s performance measures during FY 2008. The
five performance measures reported in FY 2008 were either achieved during FY 2009 or
did not meet the definition 19 established by the State Department’s Office of the Director
of U.S. Foreign Assistance. Specifically:



18
   For the 2 fiscal years, USAID/Lebanon reported on 7 performance indicators in FY 08 and 5 performance
indicators in FY 09.
19
   U.S. Department of State, “Governing Justly and Democratically—Indicators and Definitions,” Standard
Foreign Assistance Indicators, http://www.state.gov/f/indicators/index.htm.


                                                                                                          25
   During FY 2008, USAID/Lebanon reported that five judges had been trained with
    U.S. Government assistance through a study tour. However, the study tour that took
    place in Egypt did not occur until October 2008 (during FY 2009).

   USAID/Lebanon also reported that the mission had conducted four U.S.
    Government-assisted campaigns and programs to enhance public understanding,
    nongovernmental support, and media coverage of judicial independence and
    accountability. All four events occurred early in the subsequent reporting period,
    FY2009.

   USAID/Lebanon reported that one law, regulation, or procedure related to judicial
    independence was supported with U.S. Government assistance. The mission
    reported on a roundtable meeting to discuss the drafting of a judicial code of ethics
    that had occurred in November 2008. By definition, the law, regulations, or
    procedures must be official and must have been passed in accordance with the
    country’s legal requirements. The Government of Lebanon neither passed the code
    of ethics nor made it official.

In USAID/Lebanon’s Fiscal Year 2009 Full Performance Plan and Report, the mission
inaccurately and incompletely reported on all five of its performance measures. The
reported numbers did not take into account the events that had occurred in the first
quarter of FY 2009 or did not meet the established definitions. The numbers also
included double-counting of trained individuals. Specifically:

   USAID/Lebanon reported that 264 judges were trained with U.S. Government
    assistance during FY 2009. However, the NCSC report double-counted and triple-
    counted individuals as well as “judge trainees” who were not officially judges. The
    implementer also counted judges twice for one training session. Furthermore, this
    figure did not include a study tour that had occurred in the first quarter of FY 2009.
    The net result reveals that the mission over-reported the number of judges by
    70 percent in FY 2009. Supporting documentation showed that the program had
    trained 155 judges, not 264 judges. Consequently, the mission also over-reported
    the number of male and female judges trained, by 86 and 57 percent, respectively.

   USAID/Lebanon reported four U.S. Government-assisted campaigns and programs
    to enhance public understanding, nongovernmental support, and media coverage of
    judicial independence and accountability. The definition states that campaigns
    include all organized outreach activities intended to build support for a specific
    cause, relying, for example, on electronic media, print media, public meetings, or
    plays. However, two events were not consistent with the definition because they
    were closed to the public and were not outreach activities. Furthermore, the mission
    did not report some program activities, which included a press room reopening, legal
    aid training, and an awards ceremony, which occurred in early FY 2009.

   As in FY 2008, USAID/Lebanon reported that one law, regulation, or procedure
    related to judicial independence was supported with U.S. Government assistance in
    reference to a section of the code of ethics drafted for the Lebanese Government.
    However, the code of ethics was not officially passed in the Lebanese Government.
    As such, it does not meet the definition, and the mission should have reported that
    this indicator did not achieve any results.



                                                                                       26
NCSC’s task managers did not track judges’ attendance to verify that judges were not
attending multiple training sessions within one another’s areas of responsibility. The
implementer did not have a central database to document participants by names,
gender, and occupation for each training event. The implementer also had difficulty in
obtaining signatures of senior judges who did not want to sign in at events. Instead, the
implementer estimated those figures, resulting in incomplete and inaccurate data.

In January 2009, USAID/Lebanon hired a consultant to conduct a data quality
assessment for the indicators that the mission had reported to USAID/Washington in
FY 2008 and intended to report in FY 2009. The assessment reported that the indicator
included “judge trainees,” which is not consistent with the definition. It also noted
potential errors for double-counting of trainees. The assessment recommended that
“USAID ensure that the implementing partner understands the indicator definition.”
Although the COTR forwarded the data quality assessment and one of the definitions to
the implementer, the implementer’s staff did not recall receiving such information when
reporting on FY 2009 indicators and was not aware that double-counting and inclusion of
judge trainees were not allowed.

Moreover, in response to a prior audit in October 2008, the mission director issued a
memorandum to the COTRs requiring the staff to visit implementing partners to sample
and review their data for completeness, accuracy, and consistency. 20 Although the prior
audit had recommended that the mission take corrective action, the problems regarding
the mission’s monitoring continued to persist. When the implementer e-mailed its results
to be reported in the Full Performance Plan and Report, the COTR did not verify those
results by requesting supporting documentation or conducting site visits to verify the
information.

The purpose of performance reporting is to document the results achieved by the end of
each fiscal year. USAID uses the information in its annual performance plan and
financial report, and technical specialists at both the State Department and USAID use it
to examine past performance.             The Agency also communicates performance
information to higher management levels and external audiences, such as Congress and
the Office of Management and Budget. These examinations result in management
decisions about future plans and are the basis for establishing future annual budgets.

Performance reports are a basis for budget decisions and are vital in presenting
complete and accurate information. Since USAID/Lebanon reported inaccurate and
incomplete data about its rule of law program, USAID/Washington officials were not
aware that the program was not achieving results so that they could limit additional U.S.
investment in the program. Accordingly, the audit makes the following recommendation:

     Recommendation 14. We recommend that USAID/Lebanon develop and
     implement a monitoring system to validate its reported data regularly.




20
  “Audit of USAID/Lebanon’s Democracy and Governance Activities,” Audit Report No. 6-268-09-002-P,
November 9, 2008.


                                                                                               27
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Lebanon agreed with eight recommendations and
generally agreed with the remaining six recommendations. In preparing the final report,
the Regional Inspector General/Cairo (RIG/Cairo) carefully considered management’s
comments. Management decision has been made on all 14 recommendations. The
mission took final action on Recommendations 1, 3, 5, 9, 10, 11, 12, and 13.

To address Recommendation 1, USAID/Lebanon implemented corrective action. On
July 29, 2010, USAID/Lebanon received a letter from the Minister of Justice confirming
that the Judicial Training Institute will remain in use as a training institute for at least 5 to
6 years, until another facility is built. The mission has taken final action to address the
recommendation.

In response to Recommendation 2, USAID/Lebanon agreed with the recommendation
and sent the implementing partner a copy of the technical report with a request to
implement the recommendations found in the report. The mission expects final action to
be taken by August 31, 2010. Management decision has been reached on this
recommendation.

To address Recommendation 3, USAID/Lebanon implemented corrective action. On
August 17, 2010, the mission director issued a mission notice to establish guidelines
regarding supporting documentation for forward funding waiver requests. The mission
has taken final action to address this recommendation.

In response to Recommendation 4, USAID/Lebanon requested that the Regional
Contracting Office make a management decision regarding the allowability of questioned
ineligible costs in the amount of $37,600. The mission expects final action to be taken
by November 15, 2010.           Management decision has been reached on this
recommendation.

Regarding Recommendation 5, USAID/Lebanon issued a mission notice on August 17,
2010, regarding actions required for approvals of activity expenditures. The mission
sent the notice to its implementing partners on August 17, 2010. The mission has taken
final action to address this recommendation.

In response to Recommendation 6, USAID/Lebanon agreed with the recommendation
and requested the Regional Contracting Office to make a management decision
regarding the allowability of questioned ineligible costs in the amount of $26,052.
However, the mission erroneously attributed the questioned costs to those paid prior to
the task order modification no. 4. Contrary to the mission’s response, RIG/Cairo
questioned costs because the mission had paid for unauthorized program activities.
The mission expects final action to be taken by November 15, 2010. Management
decision has been reached on this recommendation.




                                                                                              28
In response to Recommendation 7, USAID/Lebanon agreed with the recommendation
and requested the Regional Contracting Office to make a management decision
regarding the allowability of questioned ineligible costs in the amount of $7,010.
However, the mission erroneously attributed the questioned costs to those paid prior to
the task order modification no. 4. Contrary to the mission’s response, RIG/Cairo
questioned costs because the mission had paid ineligible staff benefits. The mission
expects final action to be taken by November 15, 2010. Management decision has been
reached on this recommendation.

To address Recommendation 8, USAID/Lebanon agreed with the recommendation and
requested Cairo’s financial management office to arrange for an agency-contracted audit
of the locally incurred cost with a target date for completion by December 31, 2010.
Management decision has been reached on this recommendation.

In response to Recommendation 9, USAID/Lebanon stated that it has taken all possible
corrective actions to meet the intent of the audit recommendation. In March 2010,
USAID/Lebanon issued a mission notice for implementing partners to seek and obtain all
customs duties and tax exemptions authorized by the Government of Lebanon.
Because the Lebanese Government has no current customs duties and tax exemptions
in place, under a bilateral agreement or otherwise, customs duties and tax exemptions
will continue to be an issue for implementing partners. However, within the mission’s
purview, RIG/Cairo determined that the mission has taken final action to address the
intent of the audit recommendation.

In response to Recommendation 10, USAID/Lebanon stated that it has taken all possible
corrective actions to meet the intent of the audit recommendation to develop written
procedures for incurring costs for taxes and customs duties imposed by the host country
government. In March 2010, USAID/Lebanon issued a mission notice that encourages
implementing partners to seek USAID approval of any customs duties or taxes as
allowable costs prior to incurring such costs. The mission notice also instructs USAID
implementing partners to contact local counsel and host government officials for further
information. Accordingly, RIG/Cairo determined that the mission has taken final action
to address the recommendation.

To address Recommendation 11, USAID/Lebanon agreed with the recommendation and
developed a checklist to monitor completion of work plan activities. The mission has
taken final action to address the recommendation.

Regarding Recommendation 12, USAID/Lebanon agreed with the recommendation and
requested the Information Service Center to strengthen USAID electronic files
management. In addition, the mission developed a checklist as a tool for records
management and the transfer of files. The mission has taken final action to address the
recommendation.

To address Recommendation 13, USAID/Lebanon agreed with the recommendation and
developed a staff-departure checklist for both hard copy and electronic files. The
mission has taken final action to address the recommendation.

In response to Recommendation 14, USAID/Lebanon agreed with the recommendation,
and the mission director issued a memo regarding implementing partners’ data and the
data quality assessment to be performed. Furthermore, the mission expects to award a


                                                                                     29
monitoring and evaluation contract in September 2010 that will provide the mission
additional support in validating and verifying partner data. Management decision has
been reached. Final action will be determined by the Office of Audit Performance and
Compliance Division (M/CFO/APC) when the monitoring and evaluation contract has
been awarded by the target date for completion, August 31, 2010.




                                                                                 30
                                                                                     APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo (RIG) conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on an audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The purpose of this audit was to determine
whether USAID/Lebanon’s rule of law program is achieving its main goal and whether
the mission reported complete and accurate information on the progress of the activities
and the results achieved.

The audit covered a 2-year period from January 1, 2008, through December 31, 2009.
According to the mission, the rule of law program consists of one program implemented
by the National Center for State Courts (NCSC). The mission had obligated $8.2 million
as of June 2009 and had disbursed $3.3 million as of December 31, 2009, for the
program. The audit conducted detailed testing of $1.4 million for the audit period
covered.

In planning and performing the audit, we assessed internal controls related to
documentation and data verification, supervisory and management review, proper
execution of transactions and events, and review of performance measures and
indicators. Specifically, we evaluated the mission’s program documentation that
included USAID/Lebanon’s 2008 and 2009 Federal Managers’ Financial Integrity Act of
1982 assessment, USAID/Lebanon’s 2008 and 2009 full performance plans and reports,
the 2009 Lebanon data quality assessment, and oversight performed by the contracting
officer’s technical representative.

We conducted the audit fieldwork at USAID/Lebanon and at the NCSC office, Beirut
Judgment Executions Court, Judicial Training Institute, Beirut Bar Association, and
Foundation Pere Affif Osseiran in Beirut, Lebanon, from February 8 to May 13, 2010.
We also conducted audit fieldwork at the offices of Regional Contracting and Financial
Management in Cairo, Egypt. An engineering firm, Chemonics Egypt Consultants,
assisted us in reviewing and assessing renovation and refurbishment activities at the
training institute and Beirut Judgment Executions Court.

We reviewed two prior performance audits 21 related to this review regarding a previous
recommendation on tax exemptions and reviews of implementing partners’ data for
completeness and accuracy.




21
  “Audit of USAID/Lebanon’s Lebanon Education Assistance for Development Program,” Report No. 6-268-
09-005-P, July 14, 2009, and “Audit of USAID/Lebanon’s Democracy and Governance Activities,” Audit
Report No. 6-268-09-002-P, November 9, 2008.




                                                                                                 31
                                                                             APPENDIX I


Methodology
To answer the audit objectives, we interviewed USAID/Lebanon staff to gain an
understanding of the program history, associated risks, and status. We also interviewed
the implementer (NCSC), subcontractors, beneficiaries, and Lebanese Government
officials. We reviewed applicable laws and regulations and USAID policies and
procedures. To determine progress toward the achievement of planned goals, we
reviewed documentation provided by the implementer and the mission, including the
2008 and 2009 work plans; the implementer’s quarterly reports; the task order and
modifications; performance management plans; operational plans; site visit reports;
contracting officer’s technical representatives’ files; and supporting documentation, such
as training attendance sheets and assessment reports.

In answering the audit objectives, we set specific thresholds for the rule of law
performance indicators and program activities. For the performance indicators, we
considered the planned target “achieved” if the mission had met at least 90 percent of
the planned target. Indicators were judged to have been “not achieved” if the mission
had met less than 90 percent of the planned target.

RIG/Cairo selected a statistical sample of rule of law activities to verify activities
completed. With the assumption of a 5 percent error and a variation of +/- 4 percent and
95 percent confidence, the Office of Inspector General statistician in Washington
selected a random statistical sample of 55 activities to test (30 activities from 2008, 25
activities from 2009). The audit also verified the task order’s single deliverable. The
audit team verified the reported results with the implementer and by conducting site
visits. On the basis of this randomly selected statistical sample, we could project the
results onto the entire universe.

The consultant engineering firm assessed the basis for and the reasonableness of the
estimated costs, inspected the construction work to determine whether the work had
been executed in accordance with approved architectural and engineering plans, and
determined whether the work had progressed in accordance with approved construction
schedules. The engineering firm documented the results of its review in a technical
report, Technical Assistance for the Examination of the Status of Construction Work
Funded by USAID for Two Facilities in Beirut, Lebanon, dated April 28, 2010.




                                                                                       32
                                                                                        APPENDIX II



MANAGEMENT COMMENTS
August 17, 2010

MEMORANDUM

To:                 Regional Inspector General/Cairo, Jacqueline Bell

From:               USAID/Lebanon Mission director, Denise A. Herbol/S/

Subject:            Audit of USAID/Lebanon’s Rule of Law Program
                    (Report No. 6-268-10-00X-P)


Recommendation No. 1: We recommend that USAID/Lebanon develop a memorandum of
understanding with the Government of Lebanon’s Ministry of Justice regarding a commitment to
use the Judicial Training Institute for a specific time for its intended purpose and document the
results of any disagreements.

Mission Response: The Mission implemented corrective action to address this recommendation.
On July 19, 2010, the Mission Director met with the Minister of Justice to discuss his vision for
length of time this facility will continue to be used as a Judicial Training Institute. The Minister
advised that at some point (if and when financial resources are provided by the Government of
Lebanon to the Ministry) there will be a new construction on the property of the Ministry of
Justice for a training institute. He then said until such time, the facility renovated by USAID
through NCSC will remain in use as a training institute for at least 5 to 6 years. The Minister
requested USAID send a letter on this subject and he would respond in writing.

On July 20, 2010, the Mission Director sent a letter to the Minister of Justice, requesting
confirmation that the Judicial Training Institute facility will remain in use as a training institute
for judges for the foreseeable future and at least 5 to 6 years. On July 29, 2010 the Ministry of
Justice confirmed that the Judicial Training Institute will remain in use as a training institute for
at least five to six years, until another facility is built (copy of letter attached-Attachment A).

Based on the above, the Mission believes a management decision has been reached on this audit
recommendation and requests closure of audit Recommendation No. 1 upon report issuance.

Recommendation No. 2: We recommend that USAID/Lebanon review the recommendations
documented in the engineering consultant’s technical report, require the implementer to
implement the recommendations, and document justifications for any deviations from the
recommendations contained in the technical report.




                                                                                            33
                                                                                      APPENDIX II




Mission Response: The Mission agrees with this recommendation. USAID/Lebanon reviewed
the recommendations documented in the engineering consultant’s technical report which has
been sent to the implementing partner on July 29, 2010 (copy of email attached–Attachment B).
The COTR, Regional Office of Acquisition and Assistance, and implementing partner will work
to implement those recommendations that will benefit the project and are within the existing
Scope of Work and are considered cost effective given the length of time the facility will be in
service.

Target date for completion: August 31, 2010 (email from Philippe Lamarche dated Aug. 12,
2010–Attachment K

Recommendation No. 3: We recommend that USAID/Lebanon develop written procedures
regarding the required support documentation that should accompany waiver requests for
funding.

Mission Response: On March 26, 2010 Mission Order 10/04 was issued establishing activity
approval procedures including waivers for USAID/Lebanon (copy attached-Attachment C). In
addition, on May 13, 2010 an Approval and Clearance Matrix (attached-Attachment D) was
developed and adopted by the Mission stating clearances and approvals requirements. Moreover,
guidelines regarding supporting documentation for forward funding waiver requests was issued
on August17, 2010 under Mission Notice 002-2010 -Attachment L (a). Mission Director’s email
dated August 17, 2010-Attachment L (b) was sent to all technical officers to adhere to the notice.

Based on the above, the Mission believes that a management decision has been reached on this
audit recommendation and requests closure of Recommendation No. 3 upon report issuance.

Recommendation No. 4: We recommend that USAID/Lebanon request the Regional
Contracting Office to make a management decision regarding the allowability of questioned
ineligible costs in the amount of $37,600, paid prior to the task order modification no. 4, and
recover amounts determined to be unallowable.

Mission Response: On July 29, 2010 the COTR requested in writing that the Regional
Contracting Office review these costs questioned by the RIG in this audit and take a management
decision regarding the allowability of the of the $37,600, paid prior to the task order
modification no. 4 (copy of email attached-Attachment E). OAA will negotiate with the
implementing partner the questioned costs and will consider any appeals from them. If OAA
Cairo determines that these costs are unallowable, then OAA will issue a bill of collection.




                                                                                         34
                                                                                  APPENDIX II




Target date for completion: November 15, 2010 as per Contract/Agreement Officer email dated
August 17, 2010-Attachment O

Recommendation No. 5: We recommend that USAID/Lebanon establish written procedures
regarding actions required for approvals of activity expenditures and provide them to the
implementer.

Mission Response: Subsequent to extensive written email exchange with the Cairo OAA, OAA
reached an agreement with the contractor on how tasks should be completed. Only when OAA
was fully satisfied regarding procedures and actions was a modification issued. Following a
review of the staff work-load and COTR/AOTR (Agreement Officer’s Technical Representative)
duties, OAA Cairo was requested to provide the new COTRs/AOTRs designation letters for
management responsibilities including those for the Rule of Law program. The designation
letters clearly spell out the written procedures and responsibilities of COTRs and AOTRs
regarding actions required for approvals of activity expenditures. The new COTRs and AOTRs,
including for the NCSC program, then met with their implementers to discuss working
relationships and roles and responsibilities. Moreover, guidelines regarding COTR/AOTR
approval of activity expenditures was issued on August17, 2010 under Mission Notice 003-2010
-Attachment M (a). Mission Director’s email dated August 17, 2010-Attachment M (b) was sent
to all technical officers to adhere to the notice. A copy of Mission Notice 003-2010 was sent by
email to all USAID implementing partners on August 17, 2010-Attachment M (c) and a request
was sent to post Notice 003-2010-Attachment M (d)

Based on the above, the Mission believes this meets the recommendation of the audit
recommendation and requests closure of Recommendation No. 5 upon report issuance.

Recommendation No. 6: We recommend that USAID/Lebanon request the Regional
Contracting Office to make a management decision regarding the allowability of questioned
ineligible costs in the amount of $26,052 and recover all amounts determined to be unallowable.

Mission Response: The Mission agrees with this recommendation. On July 29, 2010 the COTR
requested in writing that the Regional Contracting Office review these costs questioned by the
RIG in this audit and take a management decision regarding the allowability of the of the
$26,052, paid prior to the task order modification no. 4 (copy of email attached-Attachment E).
OAA will negotiate with the implementing partner the questioned costs and will consider any
appeals from them. If OAA Cairo determines that these costs are unallowable, then OAA will
issue a bill of collection.




                                                                                      35
                                                                                    APPENDIX II




Target date for completion: November 15, 2010 as per Contract/Agreement Officer email dated
August 17, 2010-Attachment O

Recommendation No. 7: We recommend that USAID/Lebanon request the Regional
Contracting Office to make a management decision regarding the allowability of questioned
ineligible costs of $7,010 and recover all amounts determined to be unallowable.

Mission Response: The Mission agrees with this recommendation. On July 29, 2010 the COTR
requested in writing that the Regional Contracting Office review these costs questioned by the
RIG in this audit and take a management decision regarding the allowability of the of the $7,010,
paid prior to the task order modification no. 4 (copy of email attached-Attachment E). OAA will
negotiate with the implementing partner the questioned costs and will consider any appeals from
them. If OAA Cairo determines that these costs are unallowable, then OAA will issue a bill of
collection.

Target date for completion: November 15, 2010 as per Contract/Agreement Officer email dated
August 17, 2010-Attachment O

Recommendation No. 8: We recommend that USAID/Lebanon request an agency-contracted
audit of the implementer’s locally incurred costs to determine whether the recipient complied, in
all material respects, with contract terms.

Mission Response: The Mission agrees with this recommendation. On July 29, 2010 the
Mission has sent an email -Attachment N (a) to FM Cairo-Attachment N (a) to arrange an
agency-contracted audit of the locally incurred cost with a reputable audit firm in Lebanon. As a
follow on action, on August 12, 2010 a MAARD was sent by the Mission to the RCO to initiate
the action-Attachment N (b)

Target Date for completion: December 31, 2010.

Recommendation No. 9: We recommend that USAID/Lebanon, in cooperation with the
regional legal advisor, develop written procedures for negotiations to protect USAID-funded
property from being subjected to taxes and customs duties imposed by the host country
government.

Mission Response: The Mission has taken all possible corrective actions to meet the intent of
the audit recommendation.




                                                                                       36
                                                                                   APPENDIX II




USAID/Lebanon’s Mission Director and the USAID/Cairo Regional Legal Advisor, held
discussions on April 16, 2009 with the Government of Lebanon regarding the existing
bilateral agreement and in particular the question of tax exemptions and customs duties.
USAID/Lebanon received a letter from the Government of Lebanon on May 21, 2009
(attached-Attachment F) regarding our discussions and a detailed list of tax exemptions
available to USAID and our implementing partners. The GOL stated in our meeting that the
current exemptions are the same as those provided to the European Union and that no further
changes to exemptions or customs duties could be given. The current political environment
in Lebanon does not allow for the Embassy or the Mission to seek any change at this time to
the bilateral agreement.

Subsequent to receipt of the letter of May 2009, USAID/Lebanon worked with USAID/Cairo
OAA and RLA to develop a document which could be posted at our website for all
implementing partners to review. The purpose was to ensure partners would ensure they
avail themselves to the maximum extent possible of all exemptions which the GOL do
authorize. In addition, USAID/Lebanon has worked with the USAID/Cairo Regional Legal
Advisor to develop use of a standard format be used for all MOUs to the maximum extent
possible. Within the Government of Lebanon, each Ministry holds the ability at the
discretion of the Minister, to develop MOUs that meet their requirements including tax and
customs exemptions. All MOUS must be submitted to the Council of Ministers for approval.
USAID Lebanon is working to ensure that our MOUS contain the appropriate tax and
customs exemption language in line with the USAID/Lebanon Mission Notice Number 001-
2010 (attached-Attachment G) dated March 18, 2010.

Based on the above, the Mission deems that a management decision has been reached on this
audit recommendation and requests closure of Recommendation No. 9 upon report issuance.

Recommendation No. 10: We recommend that USAID/Lebanon, in cooperation with its
Regional Contracting Office, develop written procedures for incurring costs for taxes and
customs duties imposed by the host country government.

Mission Response: The Mission has taken all possible corrective actions to meet the intent of
the audit recommendation.

USAID/Lebanon’s Mission Director and the USAID/Cairo Regional Legal Advisor, held
discussions on April 16, 2009 with the Government of Lebanon regarding the existing
bilateral agreement and in particular the question of tax exemptions and customs duties.
USAID/Lebanon received a letter from the Government of Lebanon on May 21, 2009
(attached-Attachment F) regarding our discussions and a detailed list of tax exemptions




                                                                                      37
                                                                                  APPENDIX II




available to USAID and our implementing partners. The GOL stated in our meeting that the
current exemptions are the same as those provided to the European Union and that no further
changes to exemptions or customs duties could be given. The current political environment
in Lebanon does not allow for the Embassy or the Mission to seek any change at this time to
the bilateral agreement.

Subsequent to receipt of the letter of May 2009, USAID/Lebanon worked with USAID/Cairo
OAA and RLA to develop a document which could be posted at our website for all
implementing partners to review. The purpose was to ensure partners would ensure they
avail themselves to the maximum extent possible of all exemptions which the GOL do
authorize. USAID/Lebanon Mission Notice Number 001-2010 dated March 18, 2010 (copy
attached-Attachment G) states that “ It is the responsibility of the implementing partner to
seek and obtain all customs duties and tax exemptions authorized by the GOL under the laws
of Lebanon”. Furthermore it is the discretion of the RCO to approve paid taxes and duties on
a case by case basis if no there is bilateral exemption available and all attempts for such
exemptions under local law have been exhausted.

Based on the above, the Mission deems that a management decision has been reached on this
audit recommendation and requests closure of Recommendation No. 10 upon report issuance.

Recommendation 11: We recommend that USAID/Lebanon develop and document a checklist
of required information to monitor completion of work plan activities.

Response: The Mission agrees with this recommendation. A checklist (attached-Attachment H)
was developed by the current COTR for the NCSC program including all the activities as per the
work plan in line with the task order. The COTR uses this checklist to monitor completion of
work plan activities. This checklist was sent to RIG on February 11, 2010. In addition the
checklist is periodically updated.

Based on the above, the Mission believes that a management decision has been reached on this
audit recommendation and requests closure of Recommendation No. 11 upon report issuance.

Recommendation 12: We recommend that USAID/Lebanon develop written procedures for
access requirements, transfer, and maintenance of electronic program files.

Response: The Mission agrees with this recommendation. On March 26, 2010 the Mission
Director requested that the Information Service Center strengthen USAID electronic files
management. Unless a document is placed for general use on the shared drive, access to
employee folders is now restricted to each employee. In addition, documents placed by an




                                                                                      38
                                                                                        APPENDIX II



employee on the shared drive, unless a draft document, are limited to read-only ability and
cannot be changed. To further strengthen files and records management, on May 14, 2010 the
Mission Director established written procedures regarding record management and transferring
files (email attached-Attachment I).

Based on the above, the Mission believes that a management decision has been reached on this
audit recommendation and requests closure of Recommendation No. 12 upon report issuance.

Recommendation 13: We recommend that USAID/Lebanon document and publicize
requirements for its electronic records retention that are linked to an official staff-departure
checklist.

Response: The Mission agrees with this recommendation. This written procedure was
established and circulated to staff on May 14, 2010 (attached-Attachment J). The checkout form
from the US Embassy which the mission uses also has established procedures for opening and
closing accounts and moving records. The Mission developed a staff-departure checklist for
both hard copy and electronic files.

Based on the above, the Mission believes that a management decision has been reached on this
audit recommendation and requests closure of Recommendation No. 13 upon report issuance.

Recommendation 14: We recommend that USAID/Lebanon develop and implement a
monitoring system to validate its reported data regularly.

Response: The Mission agrees with this recommendation. On October 27, 2008 the Mission
Director issued a memo regarding the “Implementing Partners’ Data and Data Quality
Assessments to be performed” (copy attached). The memo is already in place and requires
COTRs and AOTRs to conduct data verification on projects on a quarterly basis. The
requirements outlined in this memo have been actively implemented in FY 2010. Furthermore,
the new Mission-contracted Monitoring and Evaluation (M&E) contract which is due to be
awarded in September 2010 will provide the mission additional support in validating and
verifying partner data.

Based on the above, the Mission believes that a management decision has been reached on this
audit recommendation and requests closure of Recommendation No. 14 upon award of the M&E
contact.

Target Date for completion: August 31, 2010.




                                                                                            39
                                                                                APPENDIX II




Attachments:
  A. Letter by Minister of Justice
  B. COTR email to implementing partner dated July 29, 2010
  C. March 26, 2010 Mission Order 10/04
  D. Clearance Matrix
  E. COTR email to OAA dated July 29, 2010
  F. Letter from the Government of Lebanon dated May 21, 2009 regarding our discussions
      and a detailed list of tax exemptions available to USAID and our implementing partners
  G. Mission Notice Number 001-2010 dated March 18, 2010
  H. Checklist developed by the current COTR to monitor project activities, COTR email to
      RIG dated February 11, 2010.
  I. May 14, 2010 written procedures established by the Mission Director regarding record
      management and transferring files
  J. On October 27, 2008 memo by the Mission Director regarding the “Implementing
      Partners’ Data and Data Quality Assessments to be performed”
  K. Email from Philippe Lamarche dated Aug. 12, 2010
  L. (a) Mission Notice 002-2010, Forward Funding Waiver Requests (b) Mission Director
      Email to staff dated Aug. 17, 2010
  M. Mission Notice 003-2010, Approval of Activity Expenditures (b) Mission Director Email
      to staff dated Aug. 17, 2010 (c) Copy of Notice sent to USAID implementing partners (d)
      Request to post Notice 002-2010 on the website
  N. (a) Mission has sent an email on July 29, 2010 (Attachment to FM Cairo to arrange an
      agency-contracted audit (b)
  O. Contract/Agreement Officer email dated August 17, 2010




                                                                                    40
                                                                                APPENDIX III


               History of Modifications to the Task Order
                                                                                 Increase in
Modification                Task Order/Modification
                                                                      Date       Obligations
   No.                            Description
                                                                                     ($)
               Awarded a cost-plus-fixed-fee completion task order
Task Order                                                           12/11/07     4,680,000
               to National Center for State Courts for $6,672,845
     1         Fully funded the task order                            9/22/08     1,992,845
     2         Changed the fund citation source                      11/19/08         –
               Added Federal Acquisition Regulation language,
     3                                                                2/19/09         –
               “Restrictions on Certain Foreign Purchases”
               (Originally modification no. 3) Added two tasks to
               the Statement of Work–(1) strategic planning and
     4                                                                 3/8/09         –
               (2) assessment, design, and preparation of bid
               documents for refurbishment work
     5         Renumbered modification no. 3 to no. 4                  4/1/09         –
               Increased the total estimated cost to $8,202,845;
               increased the total obligated amount; and added
     6                                                                6/18/09     1,500,000
               task 8 for the refurbishment of the Model Court and
               Judicial Training Institute
     7         Added a participant training clause                   12/16/09         –
                                                                                    Total
                                                                                 Obligations
                                                                                     ($)

                                                                                  8,172,845




                                                                                          41
                                                                             APPENDIX IV


       Work Plan Activities for Calendar Years 2008 and 2009
To achieve the main goal, the implementer had planned in 2008 to complete five major
tasks but increased the activities to include three additional tasks in 2009. The audit
included Tasks 7 and 8 for the renovation/refurbishment activities under Tasks 1 and 3,
respectively, for a net result of six program tasks instead of eight for discussion
purposes in this report. The eight tasks included activities as shown below:

Task 1.    Develop the capacity and infrastructure of the Judicial Training Institute
           for initial and continuing training.

Task 2.    Enhance judicial independence by supporting the Ministry of Justice and
           Supreme Judicial Council.

Task 3.    Support the Ministry of Justice’s efforts to improve court administration in
           order to reduce backlogs, improve case management techniques, and
           increase transparency.

Task 4.    Improve access to justice by providing technical assistance to the Beirut and
           Tripoli Bar Associations.

Task 5.    Provide subgrants to enhance public engagement, support reform efforts, and
           foster a culture of respect for the rule of law.

Task 6.    Develop a long-term strategic plan for the justice sector in Lebanon for the
           Ministry of Justice.

Task 7.    Conduct engineering work for the assessment, design, and preparation of bid
           documents for the refurbishment of the Judicial Training Institute and pilot
           courts.

Task 8.    Refurbish the Beirut Judgment Executions Court and Judicial Training
           Institute.

Task 1. Develop the Capacity and Infrastructure of the Judicial Training Institute.
In developing the capacity and infrastructure of the training institute, NCSC planned to
revise the curriculum, develop a continuing education program for Lebanese judges, and
procure information technology (IT) equipment. Specifically, the program planned to
furnish a few rooms dedicated to the training institute within facilities of the Ministry of
Justice, where the ministry provides a 3-year training program to law school graduates
aspiring to become judges. In 2009, the Supreme Judicial Council administered the first
examination in 4 years and selected 15 judge trainees to enter the training institute.
During 2009, NCSC provided training to the 15 judge trainees and approximately 150 of
500 sitting Lebanese judges during 1-day seminars in subjects such as arbitration,
information technology and the law, and court management.

During 2008 and 2009, the implementer made little progress in completing its capacity
building and infrastructure activities or achieving results. In August 2008, the program
shifted its focus after the JTI director requested that USAID/Lebanon refurbish a




                                                                                         42
                                                                                            APPENDIX IV


separate building to be used for the training institute. 22 Although not in the original
scope of work or approved by the mission’s regional contracting officer, NCSC began
activities to renovate five floors of an eight-story building for the judge trainees.
According to the implementer, the additional renovation activities required more time and
resources because of the lack of leadership, unfamiliarity with the Federal Acquisition
Regulation (FAR) for construction activities—which resulted in recompetitions for
construction work—and a loss of credibility with USAID/Lebanon’s regional contracting
office in Cairo and some Lebanese Government officials. Although NCSC planned to
open the newly renovated training institute by February 2009, NCSC subcontractors had
not completed 50 percent of the facility, valued at $1.2 million, as of April 2010. The
mission did not expect the facilities to be completed until June 2010.

USAID/Lebanon’s rule of law program suffered an additional setback when it shifted its
training focus, from modern teaching techniques to primarily 1-day seminars on topics
such as arbitration, after Lebanese officials informed staff that an international nonprofit
organization was conducting similar training. 23

Task 2. Enhance Judicial Independence. Under this task, the implementer achieved
some progress in improving judicial ethics reform but canceled or did not complete most
of the program activities. According to NCSC officials, judicial independence is the task
most critical to achieving the main goal of the program. NCSC was successful in
organizing a 2-day regional colloquium on judicial ethics.

The implementer did not complete any activities on legal journalism and cancelled two of
the activities planned for developing consensus for institutional judicial independence
between the Ministry of Justice and Supreme Judicial Council. The two activities
included a regional colloquium on judicial independence and an assessment for a
judges’ association, and they were cancelled because of a lack of support from
Lebanese Government officials. According to NCSC, a colloquium was no longer
needed because the President of Lebanon had requested that the Supreme Judicial
Council draft legislation on judicial independence. However, the council did not want
any direct foreign assistance or international expertise in drafting the revised legislation.
Although the Lebanese Government did not desire NCSC’s assistance, the implementer
hired retired Lebanese judges as local consultants to assist in drafting the revised
legislation.

Task 3.      Support Efforts by the Ministry of Justice to Improve Court
Administration. To support the Ministry of Justice in court administration, the program
planned to improve case management and backlog management in a model court. In
2008, the program selected the Beirut Judgment Executions Court as a model court to
improve court administration techniques in reducing case backlogs. USAID/Lebanon
later approved a major renovation of the model court as an addition to the original plan,
valued at $678,000, which included a new mobile shelving system. By the end of 2009,
the program had completed 75 percent of the renovation of the court facilities.




22
   Originally, the implementer planned to refurbish a one-room training facility and a restroom located in the
Ministry of Justice. This plan is discussed more fully on page 12.
23
   The international nonprofit organization providing training to Lebanese judicial participants is called
ACOJURIS—the Agency for International Legal Cooperation—and is funded by the European Commission.


                                                                                                          43
                                                                           APPENDIX IV


According to an NSCS assessment, the implementer could not determine the case load
and processing times by court type, geographic area, or type of case in Lebanon, as
required by the task order, because the implementer had not had sufficient time to sort
through monthly reports regarding case dispositions that had been submitted by the
Lebanese courts. The assessment was expected to be the basis for subsequent court
administration work under the program.       Although the task order required the
implementer to submit the assessment to the contracting officer’s technical
representative (COTR), the mission did not retain documentation to indicate when the
COTR had received the assessment or approved the assessment in writing.

In addition, the implementer did not adequately complete a task for a court
administration improvement plan. After a change in NCSC staff in 2009, the
implementer developed a new court administration improvement plan to serve as a
model for nationwide reform. Although USAID/Lebanon and NCSC opened a newly
renovated and refurbished model court in March 2010, the project was more than
6 months late because the implementer had to recompete bids for construction in
accordance with the FAR, causing the subcontractor to delay construction.

Task 4. Improve Access to Justice. NCSC planned to develop consensus for the
reform of legal aid and assist bar associations in strengthening skills of legal aid
attorneys to handle cases for indigent persons. The project included a study tour and an
assessment to improve citizens’ access to legal aid. Although the tour was delayed by
2 months, the implementer supported an 11-day study tour in November 2009 for four
legal aid lawyers and staff to observe legal aid institutions and practices in the United
States. In addition, an assessment of the Beirut Bar Association’s legal aid procedures
was completed 5 months later than planned because Beirut Bar Association members
were initially cautious about opening its internal functions to the public.

Task 5. Subgrants to Enhance Public Engagement, Support Reform Efforts, and
Foster a Culture of Respect for the Rule of Law. USAID/Lebanon succeeded in
providing grants to benefit women, disadvantaged youth, and other citizens. In February
and March 2009, NCSC awarded $25,000 to each of three Lebanese nongovernmental
organizations to inform abused women about their rights, to strengthen judicial
institutions to address disadvantaged juveniles, and to inform citizens about traffic laws
and regulations. One grantee has reported that 11 juveniles have received regular
psychological care, tuition for literacy activities, and opportunities to participate in
extracurricular activities as part of their rehabilitation.

Task 6. Develop a Long-Term Strategic Plan for the Justice Sector in Lebanon.
USAID/Lebanon added a task to the program in 2009 to develop a long-term strategic
plan for the justice sector in Lebanon. The implementer designed the task to provide the
Ministry of Justice with a long-term plan for historical continuity in the event of
interruption in government operations. The implementer planned several activities,
which included an assessment of the Lebanese judicial sector to determine the need for
a strategic plan and the process and methodology for its development. Although the
activity was delayed by 7 months, two international consultants and a local consultant
completed the assessment in November 2009. Another activity—to form an advisory
committee—was also delayed by 7 months because of the formation of the new
Lebanese Government.




                                                                                       44
                                                                                  APPENDIX IV


               Implementer’s Work Plan Activities for Calendar Year 2008

                                           Planned
           Planned Activity                                           Verification
                                           End Date
1.    Enhance judicial independence
1.3   Professionalize legal journalism
                                                        Not completed. Canceled in FY10. The
Develop consensus among the bench                       implementer had difficulty communicating
for journalistic competency and            12/31/2008   with key counterparts. This task was not
certification for courtroom reporting                   a part of the original task order and was
                                                        dropped by the implementer for 2010.
                                                        Not completed. Canceled in FY10. This
Host a 2-day training session on legal                  task was not a part of the original task
                                           12/31/2008
journalism for Lebanese journalists                     order and was dropped by the
                                                        implementer for 2010.
                                                        Not completed. Canceled in FY10. The
Host a 2-day training session for                       implementer met with universities but no
trainers of journalists at trade schools   12/31/2008   further action resulted. This task was not
and universities                                        a part of the original task order and was
                                                        dropped by the implementer for 2010.
                                                        Not completed. Canceled in FY10. The
                                                        implementer proposed seminars, but the
Host two seminars for bar associations                  Lebanese Government counterparts
and Lebanese Journalist Association        12/31/2008   never accepted the plan. This task was
on legal journalism                                     not a part of the original task order and
                                                        was dropped by the implementer for
                                                        2010.

                                        Planned
           Planned Activity                                        Verification
                                        End Date
2.    Develop the capacity and infrastructure of the Judicial Training Institute
2.1 Provide IT technical assistance, training, and procurement
Provide technical assistance to                     Completed 5 months later than
establish a Judicial Training Institute 9/30/2008 planned. The Web site was completed in
Web site                                            March 2009.
2.2   Support curriculum revision and modernization
Survey sitting judges for their views on
                                            6/30/2008   Not completed
the training needs of new judges
Establish a working group
                                                        Completed 12 months later than
denominated the Curriculum                  6/30/2008
                                                        planned
Development Committee
2.3   Train Judicial Training Institute trainers in modern techniques
Identify and hire local resources that
are expert in modern teaching
                                       12/31/2008 Canceled
techniques to train Judicial Training
Institute trainers
2.4 Develop a continuing education program for judicial personnel




                                                                                               45
                                                                                   APPENDIX IV


Develop a proposal for a policy on
mandatory continuing judicial
                                                        Not completed. The activity is pending
education that is suitable for the needs
                                           12/31/2008   on the sitting judges’ survey and
of Lebanese judges in collaboration
                                                        recommendation of curriculum changes.
with a Judicial Training Institute
working group
2.5   Create a sustainable library at the Judicial Training Institute
Procure and install an automated
                                         9/30/2008 Not completed. In process in 2010.
library inventory system
Working with a local contractor,
evaluate the library’s holdings and
determine which legal publications are   3/31/2009 Not completed. In process in 2010.
required in both hardcopy and
electronic versions
2.6 Assist Judicial Training Institute in revising entry criteria for trainees
Compare the Judicial Training
Institute’s entrance exam and the
selection process with those of other
                                         6/30/2008 Not completed. In process in 2010.
countries that have modern and
effective judge selection and training
programs

                                           Planned
           Planned Activity                                             Verification
                                           End Date
3.    Support efforts by the Ministry of Justice to improve court administration
3.1   Reduce backlog and improve case flow

        Contract Deliverable


Assess case backlogs and
                                                        Completed
recommendations
Use working groups to plan for change
by defining new policies, procedures,
and practices for records management                    Completed 10 months later than
                                           12/31/2008
and case management, taking into                        planned
account pilot court culture and
circumstances
Work with the various entities and
individuals to implement new policies,
                                                        Completed 10 months later than
procedures, and practices that take        12/31/2008
                                                        planned
into account individual court culture
and circumstances
                                                        Completed but was redone. The
Monitor performance by implementing                     implementer's prior task manager initially
self-assessment in pilot court based on    12/31/2008   prepared the action plan in 2008, but it
the Court Improvement Action Plan                       was useless. The new task manager
                                                        redid the plan in October 2009.




                                                                                               46
                                                                                      APPENDIX IV


Establish a working group to document
the challenges experienced and
solutions found in planning and
implementing the Court Improvement
Action Plan in the pilot court. The                        Not completed. The new task manager
                                              12/31/2008
working group will provide the Ministry                    started the activity in July 2009.
of Justice and Supreme Judicial
Council with recommendations for
rolling out the pilot court to two or three
other pilot courts in Years 2 and 3.
3.2   Improve management and administrative techniques
Prepare the chosen pilot court for the                     Completed. The pilot court was selected
                                              12/31/2008
work that is about to begin                                on October 30, 2008.
Establish a small team of experienced
court office staff from the pilot court to
define a new organizational framework         12/31/2008   Not completed
and functional relationships for
effective court administration
Implement performance monitoring
                                                           Not completed. This activity will be
with pilot court staff and Ministry of        12/31/2008
                                                           completed by July 2010.
Justice supervisory personnel
3.3   Increase accessibility of court records and information
Arrange for the training of personnel,
either paid or volunteer, to serve the
                                              12/31/2008   Not completed
general public at a court information
kiosk
Create a materials/infrastructure
working group of staff from the Ministry
of Justice and Beirut Courthouse to
develop a list of material needs for the      12/31/2008   Not completed
public areas of the courthouse building,
foyer and bathrooms, and the pilot
court

                                          Planned
            Planned Activity                                              Verification
                                         End Date
4.    Improve citizens’ access to justice
4.3   Assist bar associations in strengthening skills of legal aid attorneys
                                                           Not completed. The Beirut Bar
                                                           Association was hesitant to open
Develop a curriculum handbook for
                                                           information to public, and the
training attorneys in legal assistance         3/31/2009
                                                           infrastructure was not in place for training
for indigent persons
                                                           to take place. The implementer plans to
                                                           complete this activity in 2010.
4.4   Support bar associations to increase attorney participation in legal aid
Conduct a roundtable discussion with                       Not completed. The Beirut Bar
each of the Beirut and Tripoli bar                         Association met in October 2008. The
                                              12/31/2008
associations on the merits of legal aid                    Tripoli Bar was facing problems with
work                                                       security situations and could not meet.




                                                                                                     47
                                                                                 APPENDIX IV



                                           Planned
           Planned Activity                                           Verification
                                           End Date
5.    Implement grants program
5.1   Establish grant procedures
                                                        Completed 1 month later than
Adapt existing grants management
                                            6/30/2008   planned. The implementer completed
manual
                                                        the grants manual in July 2008.
                                                        Completed 4 months later than
Obtain USAID approval for grant
                                            6/30/2008   planned. USAID approved the manual
management manual
                                                        in October 2008.
                                                        Completed. The implementer included
Establish the funds disbursement                        the funds disbursement mechanism in
                                            9/30/2008
mechanism                                               the grants manual, which was completed
                                                        in July 2008.
5.2   Issue request for proposals and select grantees
                                                        Completed 2 months later than
                                                        planned. The implementer issued the
Issue request for proposals                 9/30/2008
                                                        request for proposals in three
                                                        newspapers in November 2008.
5.3   Support grantees
                                                        Completed 4 months later than
Conduct organizational assessments of                   planned. The implementer completed
applicants to identify any weaknesses       9/30/2008   the assessments after the final proposals
in financial accounting procedures                      were submitted for all six applicants in
                                                        January 2009.
To ensure that grantee initiatives
receive prominent press coverage,                       Completed 1 month later than
revise public and media outreach                        planned. The implementer finished
components of proposals of grantees        12/31/2008   revising proposals in January 2009.
before their proposals are finalized and                However, the media component was very
submitted to USAID for approval                         briefly mentioned in the proposals.
Provide continuous input to grantee                     Not completed. The implementer had
activities and outputs and review          12/31/2008   not selected grantees as of the end of
monthly narrative and financial reports                 2008.


              Implementer’s Work Plan Activities for Calendar Year 2009

                                        Planned
           Planned Activity                                        Verification
                                        End Date
1.    Develop the capacity and infrastructure of the Judicial Training Institute for initial
      and in-service training
1.2   Judicial Training Institute curriculum development and training of judges
                                                        Completed 6 months later than
Curriculum development expert               3/31/2009   planned. The implementer awarded a
                                                        judge a subcontract on August 14, 2009.
Curriculum Development Committee
                                            5/31/2009   Not completed
review of seminar recommendations



                                                                                               48
                                                                                 APPENDIX IV


and implementation of changes
Participation at Lisbon Network                        Completed 1 month later than planned
                                           9/30/2009
Seminar
1.3   Modern training techniques for Judicial Training Institute faculty/personnel
                                                       Completed. The implementer trained
Computer training                         12/31/2009   three clerk staff members from the
                                                       Judicial Training Institute.
1.4   Develop continuing judicial education
                                                       Completed but not as required in the
                                                       work plan. The implementer did not hire
Arbitration expert hired                   3/31/2009
                                                       an American expert as required in the
                                                       work plan.
Training for judicial personnel      in
                                          12/31/2009   Not completed
computer use and Internet
1.5   Develop Judicial Training Institute library
                                                    Not completed. The implementer
Assessment of Judicial Training                     reported that the assessment was
                                        3/31/2009
Institute library needs                             completed but could not provide any
                                                    evidence
1.6 Improve Judicial Training Institute capacity to recruit/select judicial candidates
Delivery of selection tool manual and
                                        1/31/2009 Completed
protocol

                                          Planned
           Planned Activity                                           Verification
                                          End Date
2.    Enhance judicial independence
2.1    Develop consensus for institutional judicial independence
                                                      Canceled. The President of Lebanon
                                                      requested that legislation on
Regional colloquium on independent                    independence be proposed, so this
                                        11/30/2009
judiciary                                             activity was not necessary anymore.
                                                      Also, ethics was a higher priority for the
                                                      implementer.
                                                      Canceled. The implementer stated that
                                                      the executive branch does not support a
                                                      judges' association. Without that
Judges' association assessment           9/30/2009
                                                      support, an association cannot be
                                                      formed. Therefore, the implementer
                                                      dropped the activity.
2.2   Assist Ministry of Justice in developing a long-term strategic plan for justice
                                                       Completed 7 months later than
Assessment with recommendations            3/31/2009   planned. An assessment was
                                                       completed on November 9, 2009.
                                                       Completed 8 months later than
                                                       planned. Committees were established
Form advisory committee                    4/30/2009
                                                       at the strategic planning retreat on
                                                       December 29, 2009.
                                                       Completed 1 month later than
Retreat                                   11/30/2009   planned. Retreat on December 29,
                                                       2009.



                                                                                              49
                                                                                 APPENDIX IV


                                                        Not completed. In progress; no
Conference on new plan                   12/31/2009
                                                        specified date planned for a conference.
2.3 Improve foundation for judicial ethics reform
                                                        Not completed. The implementer stated
                                                        that the Supreme Judicial Council
                                                        president asked the consultant to draft a
Legislative drafting committee                          code of ethics for the legislative
                                         10/31/2009
meetings                                                committee. The implementer would
                                                        assist the legislative drafting committee
                                                        meetings; this activity is not in their
                                                        control.

                                         Planned
          Planned Activity                                            Verification
                                         End Date
3.    Support efforts by the Ministry of Justice to improve court administration
3.1 Improve case management and backlog management and policy
Progress meetings with model court
                                     12/31/2009 Completed
judges and staff
Training and follow-up on new filing
                                     12/31/2009 Not completed
methods
Job descriptions for court staff
                                     10/31/2009 Completed but delayed
developed
Data on successes and obstacles at
                                     12/31/2009 Not completed
Model Court compiled
3.2 Complete and launch Model Court
Architectural drawings for Model Court                  Completed 2 months later than
                                            2/28/2009
prepared and finalized                                  planned.

                                         Planned
          Planned Activity                                            Verification
                                         End Date
4.    Improve citizens’ access to justice
4.1   Develop consensus for upgrade of legal aid procedures
                                                   Completed 5 months later than
                                                   planned. Beirut Bar Association was
Assessment with recommendations       4/30/2009 initially hesitant to open its internal
                                                   functions to outside assistance. Not all
                                                   members were supportive.
                                                   Completed but delayed by 2 months.
Study tour to United States            9/30/2009 Completed in November 2009 for four
                                                   participants.
4.2   Assist bar in strengthening skills of legal aid attorneys

4.3  Support bar to increase attorney participation in legal aid
                                                    Not completed. From September 2009,
                                                    members of the bar were busy
Second Annual Legal Aid Awards
                                       11/30/2009 campaigning for key elections held on
Ceremony
                                                    November 15, 2009. This activity was
                                                    not a priority for the bar association.




                                                                                              50
                                                                      APPENDIX IV


                                 Planned
          Planned Activity                                 Verification
                                 End Date
5.    Implement grants program

5.1   Award grants
                                             Completed. The committee met on
Grantees chosen by Proposal                  January 29, 2009, and selected three
                                 2/28/2009
Evaluation Committee                         grantees. USAID approved the three
                                             grantees on January 29, 2009.
                                             Ongoing, completing as planned. The
                                             implementer was monitoring the financial
Grantee monitoring               6/30/2009
                                             reports every quarter and the progress
                                             reports every month.




                                                                                  51
                                                                                                APPENDIX V


                                     Indicator Results for
                                 Calendar Years 2008 and 2009
                                                  (Unaudited)

                            Implementer’s Indicator Results for
                                  Calendar Year 2008
                                                  (Unaudited)

Task 1.   Enhance judicial independence 24
                                                                                                    Results
  Expected
                             Performance Measurement                        Target     Actual      Achieved
   Result
                                                                                                     (Y/N)
                  Recommendations developed and approved by
                  stakeholders for improved strategy and growing
Improved                                                                     Yes         No            No
                  consensus for reforms to increase judicial
judicial
                  independence
independence
                  Number of action plans developed for the
                                                                                2          0           No
                  Supreme Judicial Council
Judges honor      Code of ethics written and submitted for
                                                                              No         No            No
code of ethics    passage to Parliament
                  Legal journalism certification program
                                                                             Yes         No            No
Increased         established
transparency of   Number of courthouses with upgraded facilities
                                                                                1          1          Yes
judicial          for legal reporting
proceedings       Number of legal journalism courses offered at
                                                                                1          0           No
                  trade schools and universities
Task 2.   Develop the capacity and infrastructure of the Judicial Training Institute for initial
           and continuing training
                                                                                                    Results
  Expected
                             Performance Measurement                        Target     Actual      Achieved
   Result
                                                                                                     (Y/N)
Judges are well   Automated library inventory system installed
                                                                             Yes         No            No
trained and       and functional
qualified         Number of new holdings procured                              30          0           No
                  Number of judges/trainees using automated
                                                                               15          0           No
                  library system per month
                  Number of judges/trainees using Judicial
                  Training Institute library per month                         15          0           No
                  Online resource database added to Judicial
                                                                             Yes         No            No
                  Training Institute Web site
                  Number of Supreme Judicial Council members
                  and Judicial Training Institute president and
                  director who believe the newer judge trainees                 8          0           No
                  are substantially better qualified than the
                  trainees in the past 5 years
                  Percentage of judge trainees responding that
                  curriculum is satisfactory in meeting their                  75          0           No
                  training needs
    24
      The implementer erroneously categorized Task 1 and Task 2 in its 2008 performance monitoring plan.
    Task 1 should refer to Judicial Training Institute activities and Task 2 to judicial independence activities.


                                                                                                             52
                                                                                          APPENDIX V


                  Percentage increase in courses incorporating
                                                                          20        0         No
                  modern/interactive approaches
                  Policy developed and approved                          Yes      No          No
                  Ministry of Justice allocates sufficient budget
                                                                         Yes      No          No
                  resources for continuing judicial education
                  Judicial Training Institute facility refurbished       No       No          No
                  Percentage of Judicial Training Institute officials
                  and judge trainees that have access to                 100        0         No
                  computers, Internet, and other IT equipment
                  Number of classrooms with audio/video
                                                                           1        0         No
                  equipment installed
                  Percentage of administrative staff with computer
                                                                          70        0         No
                  skills

Task 3.    Support efforts by the Ministry of Justice to improve court administration
                                                                                            Results
   Expected
                            Performance Measurement                     Target   Actual    Achieved
    Result
                                                                                             (Y/N)
Pilot court       Percentage of redundant files and documents
                                                                         100      100        Yes
office            boxed in Beirut and moved to storage
functioning       Percentage of active files properly indexed and
                                                                         100        0         No
efficiently and   filed in Beirut Executions Court Office
with added        Percentage of closed files moved offsite               100      100        Yes
transparency      Standardized filing system designed.                   Yes      No         No
                  Percentage of files found within the same day
                                                                          80        0         No
                  using new system
                  Number of counters installed to serve the public         1        0         No
                  Number of lawyers attending orientation session
                                                                         100        0         No
                  to explain new counter services
                  Number of offices created for judges presently
                                                                           2        0         No
                  working without an office
                  Computer network installed at Ministry of
                                                                         Yes        0         No
                  Justice for managing supplies and repairs
                  Number of manuals prepared and approved for
                                                                           1        0         No
                  new counter service and filing procedures
                  Number of court staff and judges trained in new
                                                                         20+        0         No
                  counter service and filing procedures
                  Number of staff trained to be part of Pilot Court
                                                                           3        0         No
                  Specialized Working Group
                  File review area created in pilot court with
                                                                         Yes      No          No
                  photocopy service established
                  Job descriptions, competencies, entry
                  requirements, and performance criteria defined         Yes      No          No
                  and approved
                  Percentage of staff evaluated using new
                                                                         100        0         No
                  performance evaluation criteria
                  Percentage of visitors to the court receiving
                                                                          50        0         No
                  assistance at information kiosk
                  Number of persons trained to assist public at an
                                                                           3        0         No
                  information kiosk
                  Signage installed                                      Yes      No          No
                  Main entrance of the courthouse opened to the
                                                                         Yes      No          No
                  public



                                                                                                   53
                                                                                            APPENDIX V


                   Public restrooms repaired and cleaned
                                                                           Yes      No          No
                   according to established schedule/standards

Task 4.   Improve access to justice
                                                                                              Results
   Expected Result                Performance Measurement                 Target   Actual    Achieved
                                                                                               (Y/N)
                            Percentage of attorneys responding that
                            it is important for lawyers to volunteer to     50        0         No
Indigent citizens           provide legal aid services
receive quality legal       Number of legal aid attorneys receiving
                                                                            50        0         No
services                    feedback on services provided
                            Number of law schools with curriculum
                                                                             1        0         No
                            for legal aid work


Task 5.    Grants to enhance public engagement, support reform efforts, and foster a culture
           of respect for the rule of law
                                                                                              Results
   Expected Result                Performance Measurement                 Target   Actual    Achieved
                                                                                               (Y/N)
Increased public            Number of participants in workshops            35       15          No
support for reforms and
respect for the rule of     Number of grant applications submitted
                                                                             3        0         No
law                         and awarded


                            Implementer’s Indicator Results for
                                  Calendar Year 2009
                                                 (Unaudited)

Task 1.    Develop the capacity and infrastructure of the Judicial Training Institute for initial
           and continuing training
                                                                                              Results
 Expected Result               Performance Measurement                    Target   Actual    Achieved
                                                                                               (Y/N)
Judges are well         Number of judicial trainees attending
trained and             classes at the Judicial Training Institute
                                                                            20       15         No
qualified               renovated by project or attending project-
                        supported courses elsewhere
                        Number of sitting judges trained or
                                                                            15      247        Yes
                        participating in study tours
                        Number of computer stations available for
                                                                            40        1         No
                        judicial training
                        Number of online legal resource sites
                                                                             1        1        Yes
                        operated by the Judicial Training Institute
                        Number of judicial trainee candidates
                        examined for entry into judicial profession         20      600        Yes
                        with modern techniques
                        Percentage of judge trainees responding
                        that curriculum is satisfactory in meeting          80        0         No
                        their training needs
                        Number of new of upgraded IT stations for
                                                                            30        0         No


                                                                                                     54
                                                                                        APPENDIX V


                    e-library
                    Number of judicial training management
                    information systems created or supported               1        1      Yes
                    by the project
Task 2.   Enhance judicial independence
                                                                                          Results
 Expected Result              Performance Measurement                 Target   Actual    Achieved
                                                                                           (Y/N)
                       Number of programs to enhance public
                       understanding and media coverage of             1        1          Yes
                       judicial independence and accountability
                       Number of assessments for adjustment to
                       rules and regulations for budget control for    1        1          Yes
Improved judicial
                       the Supreme Judicial Council
independence
                       Number of assessments for change in law
                       to allow judiciary determination of
                       composition of Supreme Judicial Council         1        0           No
                       over competing authority of the Council of
                       Ministers
                       Number of programs to reform the judicial
Judicial code of       code of conduct and procedures for              5        2           No
professional           enforcement
conduct honored        Number of assessments to reform
and enforced           procedures for the enforcement of judicial      1        1          Yes
                       discipline
                       Number of seminars, training sessions,
Increased              training handbooks, and programs in legal
transparency of        journalism at journalism trade schools and      6        0           No
judicial proceedings   universities to enhance the competency of
and avoidance of       legal journalists
personal attacks       Number of programs supporting the
against judiciary in   establishment of a Supreme Judicial
                                                                       5        0           No
media                  Council/Ministry of Justice media relations
                       office

Task 3.   Support efforts by the Ministry of Justice to improve court administration
                                                                                          Results
 Expected Result              Performance Measurement                 Target   Actual    Achieved
                                                                                           (Y/N)
                       Number of courts with improved
Improved court
                       infrastructure adequate to serve modern             2        0       No
administration
                       court administration
                       Number of modern manual filing systems
                       designed, implemented, or supported—
                       installation of modernized filing systems in        2        0       No
                       the Model Court and Solicitor General’s
                       Office
                       Number of court personnel trained in
                                                                       120       87         No
                       modern administrative techniques
                       Number of management information
                       systems created or supported— installation
                       of automation-assisted case management              2        0       No
                       systems in Judgment Executions Court and
                       Solicitor General’s office


                                                                                                 55
                                                                                          APPENDIX V


                        Number of information educational and
                        awareness events regarding court
                                                                           8       3          No
                        administration improvements completed by
                        the project
Number of
modernized
administrative
                        Case management systems of Judgment
processes and
                        Executions Court and Solicitor General’s           2       0          No
procedures
                        office
created,
implemented, or
supported

Task 4.    Improve access to justice
                                                                                            Results
 Expected Result               Performance Measurement                  Target   Actual    Achieved
                                                                                             (Y/N)
                        Number of legal aid attorneys trained            250       4          No
                        Number of legal aid administrative systems
Indigent citizens
                        analyzed and recommended for                       2       2         Yes
receive quality legal
                        improvement
services
                        Number of publicized events in support of
                                                                           2       0          No
                        legal aid
                        Number of publications created and
Public is informed      distributed by the project regarding justice       2       1          No
of justice services     services
                        Number of informative events targeted for
                                                                           2       0          No
                        public awareness of justice


Task 5. Grants to enhance public engagement, support reform efforts, and foster a culture of
respect for the rule of law
                                                                                            Results
 Expected Result               Performance Measurement                  Target   Actual    Achieved
                                                                                             (Y/N)
Increased public        Number of participants in workshops               35        0         No
support for reforms
and respect for the     Number of grant applications submitted and
                                                                           0        3        Yes
rule of law             awarded


Task 6.    Strategic planning for justice sector in Lebanon
                                                                                            Results
 Expected Result               Performance Measurement                  Target   Actual    Achieved
                                                                                             (Y/N)
Institutional           Strategic planning assessment—
consensus on                                                              1        1         Yes
                        organizational readiness
reforms for justice
sector for short- to    Number of workshops to build justice sector
medium-term             institutional consensus on strategic planning     1        1         Yes
captured in             methodology
strategic plan




                                                                                                   56
                                                                                          APPENDIX V



Task 7.   Facility assessment and architectural-engineering design/bid material
                                                                                            Results
 Expected Result                Performance Measurement                 Target   Actual    Achieved
                                                                                             (Y/N)
                        Architectural-engineering firm produces
Architectural-          design, technical specifications, and bill of     1        1         Yes
engineering design      quantities
for Judicial Training   Submission of building assessment report          1        1         Yes
Institute facility      USAID approval of Request for
                                                                          1        1         Yes
                        Proposals/bid documentation
                        Architectural-Engineering firm produces
                        design, technical specifications, and bill of     1        1         Yes
Architectural-
                        quantities
engineering design
                        Submission of building assessment report          1        1         Yes
for Model Court
                        USAID approval of Request for
                                                                          1        1         Yes
                        Proposals/bid documentation

Task 8.   Refurbishment of Model Court and Judicial Training Institute
                                                                                            Results
 Expected Result                Performance Measurement                 Target   Actual    Achieved
                                                                                             (Y/N)
                        Subcontract for construction works through
                                                                          1        0          No
Renovation of           competitive process
Judicial Training       Procurement list with assistance of expert
                                                                          1        0          No
Facility                advice
                        Completion of all construction works              1        0          No
                        Subcontract for procurement of
                        furniture/fixtures and IT/computer                1        1         Yes
Renovation of           equipment through competitive process
Model Court             Procurement list with assistance of expert
                                                                          1        0          No
                        advice
                        Completion of all construction works              1        0          No




                                                                                                   57
                                                                           APPENDIX VI


                      Total Costs of Renovated Facilities

      Judicial Training Institute           Project Cost ($)           Comment
Project supervisor                                 79,200      Contracted amount
General contractor                                924,330      Contracted amount
Terminated project supervisor                      13,600      Actual paid costs
Furnishings & IT equipment                        211,967      Estimated cost
                                Subtotal        1,229,097

 Beirut Judgment Executions Court           Project Cost ($)           Comment

Project supervisor                                 60,000      Contracted amount
                                                               Amended contracted
General contractor                                448,527
                                                               amount
Furnishings                                       169,215      Actual paid costs
                                Subtotal          677,742
                                    Total       1,906,839
Total estimated cost per revised task
                                                8,202,845
order—modification no. 6
Percentage of renovation to task order            23




                                                                                    58
                                                                                       APPENDIX VII


                Engineering Consultants’ Recommendations
 Recommendation
                                                     Recommendation
      No.
                                Beirut Judgment Executions Court
                                              Ventilation
                        The duct metal works and wall crossings need to be checked by qualified
          1
                        technicians and under supervision from the project consultant team.

                        The humidity of the filling room needs to be reviewed to maintain the
          2
                        humidity percentages within suitable limits.
                                          Air Conditioning
                        The DX units were installed on the building’s roof; all the cables and
          3             rubber items should be protected from direct sunlight. The contractor
                        must cover the cables and any rubber items with a steel cover.

                                     Judicial Training Institute
                                  Interior Architectural Finishing
                        Site supervision needs to be reinforced by the project consultant
          4             especially during the final stage of the work and the limited remaining
                        construction time.
                                          Electrical Works
                        All required tests, such as the insulation resistance tests and loop tests,
          5
                        need be conducted and recorded in a checklist.
                                         Cabling and Wiring
                        Termination of wires and cables in the equipment and the junction boxes
           6            needs approved terminal blocks. The project consultant needs to check
                        the termination of wires and cables.

          7             The circuits need to be identified and checked by the project consultant.

                        The contractor needs to review the number and size of wires per
          8             conduits, and accordingly the project consultant should check and
                        approve the work.
                                              Ventilation
                        The duct metal works and wall crossing need to be reviewed by qualified
          9
                        technicians under supervision from the project consultant team.

                                     Air-Conditioning Works
                        The DX units were installed above the false ceiling. Required
         10             performance tests should be applied and certified by the project
                        consultant.
                                         Plumbing Works
                         The required hydrostatic test should be applied and certified by the
         11
                         project consultant.
Source: Engineering consultant’s report, Technical Assistance for the Examination of the Status of
Construction Work Funded by USAID for Two Facilities in Beirut, Lebanon, dated April 28, 2010, pages 6–8.



                                                                                                      59
                                                                                 APPENDIX VIII


                   Comparison of Air-Conditioning Systems

               Items                        DX System                      Chiller System
Initial cost                      Smaller                         Larger
                                                                  Smaller (about 10% saving in
Running cost                      Larger
                                                                  energy)
                                  Greater temperature
Space temperature control                                         Better control quality
                                  fluctuation
                                                                  Meets any requirement
                                  Not satisfactory because low-
Air cleanliness                                                   because medium- or high-
                                  efficiency air filters have
                                                                  efficiency air filters may be
                                  been installed
                                                                  installed
                                                                  Lower space noise criteria
Space sound level                 Higher space noise criteria
                                                                  curve because of better sound
                                  curve
                                                                  attenuation
Load diversity                    No diversity                    Lower diversity
System component
                                  Lower                           Higher
efficiency
Equipment life                    Shorter                         Longer
                                  More maintenance work           Less maintenance work
Maintenance
                                  Maintenance of conditioned      Maintenance of fan room and
                                  space                           plant room

Source: Engineering consultant’s report, Technical Assistance for the Examination of the Status of
Construction Work Funded by USAID for Two Facilities in Beirut, Lebanon, dated April 28, 2010.




                                                                                               60
                                                                                  APPENDIX IX


          Price Comparison Analysis of Renovated Facilities
                                             Project         Market
                                                                           Difference    Percentage
 Beirut Judgment Executions Court            Costs           Costs
                                                                               ($)       Difference
                                               ($)            ($)
 Demolition and alteration                    18,500         10,000           8,500            85
 Concrete work                               59,173          59,173              –              0
 Masonry                                     15,641          14,447          1,194              8
 Wall and roof cladding and covering         19,919          19,919              –              0
 Thermal and moisture protection              9,700           9,603               9             1
 Dry linings, flooring, and partition        19,771          19,399            372              2
 Metalwork and woodwork                      62,185          54,074          8,111             15
 Surface finishes                            26,470          19,641          6,829             35
 Glasswork                                    4,809           3,435          1,374             40
 Painting and decorating                     11,350           1,350              –              0
 Fittings, specialties, and equipment        15,383          13,705          1,678             12
 Electrical works                            50,483          44,672           5,811            13
 Heating and HVAC                           103,409          92,544          10,864            12
                                 Subtotal   416,792          371,962         44,830            12

                                             Project         Market
                                                                           Difference    Percentage
      Judicial Training Institute            Costs           Costs
                                                                               ($)       Difference
                                               ($)            ($)
 Demolition and alteration                     7,800           7,800             –              0
 Masonry                                      23,023          18,837          4,186            22
 Thermal and moisture protection              9,420            9,420                            0
 Dry linings, flooring, and partition       145,611          132,374         13,237            10
 Metalwork and woodwork                      41,205           37,714          3,491             9
 Surface finishes                           129,271          109,083         20,188            19
 Glasswork                                   21,299           19,776          1,523             8
 Painting and decorating                      14,345          14,345             –              0
 Fittings, specialties, and equipment         25,650          25,650             –              0
 Electrical works                           227,143          201,103         26,040            13
 Mechanical                                 216,770          200,588         16,183             8
 Contingencies and unforeseen                10,000           10,000             –              0
                                 Subtotal   871,536          786,689         84,847           11

                                             Project         Market
                                                                           Difference    Percentage
         Renovated Facilities                Costs           Costs
                                                                               ($)       Difference
                                               ($)            ($)
 Beirut Judgment Executions Court           416,792          371,962         44,830           12
 Judicial Training Institute                871,536          786,689         84,847           11
                                    Total   1,288,328       1,158,651       129,677           11
Source: Engineering consultant’s report, Technical Assistance for the Examination of the Status of
Construction Work Funded by USAID for Two Facilities in Beirut, Lebanon, dated April 28, 2010.



                                                                                               61
                                                                                  APPENDIX X



                                  Questioned Costs

Description                            Amount ($)       Questioned
                                                        Cost incurred by the implementer prior to
Engineering fees                          37,600
                                                        contract modification
                                                        Costs incurred for activities that are
                                                        unauthorized because they are outside the
Journalism expert consultants fees        26,052
                                                        original scope of work. The contract was not
                                                        amended to add activities.
                                                        Cost incurred for the payment of overtime
Overtime charges                           7,010
                                                        that is not authorized under the subcontract
                              Total      70,662


                                  Overtime Charges
                                             Workdays                          Salary & Benefits
                                     March 2008 to February 2009                      ($)
Direct workdays                                 236                                 122,146
Paid rest and recuperation                       15
Paid U.S. holidays                               10
Paid local holidays                              12
     Total salary—direct labor costs                                                122,146
     Absences—indirect labor costs                                                   25,070
Total direct and indirect labor
                                                273                                 147,216
charges
Overtime charges                                   13                                 7,010




                                                                                              62
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue NW
          Washington, DC 20523
             Tel.: 202-712-1150
             Fax: 202-216-3047
            www.usaid.gov/oig
